<html>
<title> - TRANSPORTATION AND HOUSING AND URBAN DEVELOPMENT, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2012</title>
<body><pre>[Senate Hearing 112-]
[From the U.S. Government Publishing Office]



 
TRANSPORTATION AND HOUSING AND URBAN DEVELOPMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2012

                              ----------                              


                        THURSDAY, MARCH 10, 2011

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:33 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Patty Murray (chairman) presiding.
    Present: Senators Murray, Pryor, Collins, Coats, and Blunt.

                      DEPARTMENT OF TRANSPORTATION

                        Office of the Secretary

STATEMENT OF HON. RAY LaHOOD, SECRETARY
ACCOMPANIED BY CHRISTOPHER BERTRAM, ASSISTANT SECRETARY OF 
            TRANSPORTATION FOR BUDGET AND PROGRAMS, AND CHIEF FINANCIAL 
            OFFICER

               OPENING STATEMENT OF SENATOR PATTY MURRAY

    Senator Murray. Good morning. The subcommittee will come to 
order.
    Welcome, Secretary Ray LaHood. Thank you for coming back to 
our subcommittee to talk about the Department of 
Transportation's (DOT) budget request and our Nation's 
transportation policy. I appreciate your being here today.
    The subject of this hearing is the DOT budget for fiscal 
year 2012. Yet, even as we sit here today, halfway through the 
fiscal year, the Federal Government still lacks a final budget 
for fiscal year 2011. The Congress is continuing to debate that 
budget as millions of families and communities across the 
country wait anxiously to learn the fate of programs they 
depend upon. And this debate is critical. We do need to tackle 
the deficit and make sure our children and grandchildren aren't 
forced to bear the burden of overwhelming debt.
    Yesterday, the Senate voted on two bills, one from the 
House Republicans, the other a Senate Democratic alternative, 
to fund Federal agencies through the end of this fiscal year 
2011. The House proposal was a budget that would have 
eliminated the high-speed rail and Transportation Investment 
Generating Economic Recovery (TIGER) grant programs and made 
deep cuts to transit, Amtrak, and aviation spending.
    Transportation is central to so much of the way our lives 
are organized, and there is overwhelming evidence that greater 
investment is needed today in communities across our country, 
whether it's replacing our crumbling bridges and tunnels, or 
building new roads and transit lines to support economic growth 
and competitiveness and ease congestion. The DOT budget has a 
real impact on real people.
    I was deeply concerned that the House Republican budget 
would eliminate funding for the highly competitive TIGER 
Discretionary Grant program. It's a program that has become a 
showcase for innovation in both rural and urban communities. 
The House proposal goes so far as to eliminate TIGER grants 
that were already awarded to 75 communities last year--the 75 
most promising projects out of a field of more than 1,000 
applicants.
    One of those 75 projects is a project in my home State that 
really typifies what those grants mean to all of our States. In 
south Seattle, there is a community that is hanging on by a 
thread. The main access road to commerce goes through a bridge 
that, like infrastructure in a lot of our States, was crumbling 
and had to be closed. Mr. Secretary, you were there and saw 
that. I have spoken to the small business owners and residents 
of this community who told me that bridge is really their 
lifeline.
    Last year, the South Park Bridge won a TIGER grant to help 
rebuild that bridge. And that bridge today is now creating jobs 
and aiding the recovery of an entire community, and will be a 
foundation for that community to thrive on for generations to 
come. But the funding for that project, and many others like 
it, was left on the cutting-room floor by House Republicans in 
an effort to meet an arbitrary bottom line. And that is just 
one example from an extreme plan that focuses on short-term and 
shortsighted cuts while neglecting a long-term plan for 
responsible deficit reduction to support our economic recovery.
    The Senate Democratic bill protected those investments, 
choosing to end programs that have served their purpose or are 
no longer needed. We do need to make responsible and practical 
budget cuts that will allow us to continue out-innovating, out-
educating, and out-building our competitors.
    As we all know, neither bill was able to garner enough 
votes to win passage. A compromise is needed, one where both 
sides come to the table to work together on a long-term 
solution that invests in our country's future. And as we work 
to cut spending, we need to make sure that we are not doing 
anything to threaten our economic recovery or cause even more 
workers to lose their jobs.
    So, today, as we look at the fiscal year 2012 budget, I 
will be taking the responsible approach and analyzing how 
taxpayer dollars can be invested more effectively to continue 
our economic recovery, improve our economic competitiveness, 
strengthen our communities, ensure safety, foster innovation, 
and manage our Federal resources efficiently. The investments 
we make in transportation and in our national infrastructure 
are such an important part of supporting our economy, 
rebuilding our communities, and improving safety.
    And the need to invest in our transportation infrastructure 
is huge. Many of us have seen the report card for America's 
infrastructure that was put together by the American Society of 
Civil Engineers. Their overall grade for our Nation's 
infrastructure is a D. And their grade for roads is even more 
depressing: a D-. Our Nation's rail network earned a paltry C-. 
And transit earned nothing more than a D.
    The President's budget request tries to address this 
problem, asking for a 69-percent increase in funding for DOT. 
The request includes an immediate investment of $50 billion to 
boost the economy, as well as the 6-year reauthorization 
proposal for surface transportation. Clearly, this proposal 
offers a grand vision for our transportation programs.
    I applaud the administration's effort to promote investment 
in our Nation's infrastructure, but I also think we need more 
than grand ideas. We need to discuss real strategies that will 
make them happen. And unfortunately, this budget proposal 
doesn't offer us real solutions for the challenges we face 
today. When we talk about paying for transportation, the 
biggest challenge we face is the solvency of the Highway Trust 
Fund (HTF). Even under current funding levels, without paying 
for the additional $50 billion in stimulus funding requested by 
the administration, HTF will be bankrupt by the end of fiscal 
year 2012 or the beginning of 2013. The administration has 
offered to work with the Congress to address this problem, but 
when it comes to discussing specific solutions, the President 
has opposed an increase to the gas tax, opposed the development 
of a new revenue system based on miles traveled, and still not 
offered any proposals for making sure HTF has enough revenues 
to pay for its budget request.
    I'm also concerned about what happens to transportation 
programs in fiscal year 2012. A long-term solution for HTF will 
not be able to solve our immediate crisis. The Congress has 
already transferred more than $34 billion from the General Fund 
to HTF. I will be interested to hear from the Secretary if he 
thinks another transfer is necessary to get through this year 
or if he can offer another way to avert a crisis. At a time 
when the House is focusing on slash-and-burn politics, we need 
to see some realistic alternatives being discussed. And I'm 
disappointed the budget request doesn't offer that.
    I'm also troubled by the administration's proposal to 
reclassify transportation programs as purely mandatory funding. 
This proposal helps the administration meet its goal of 
freezing growth in discretionary budget, but it also means the 
administration has failed to request about $7 billion for the 
rail and public transit programs that have been traditionally 
funded with discretionary resources. That is a large hole for 
the Congress to fill from the outset.
    More importantly, the proposal leaves the Department 
without annual oversight and input from the Appropriations 
Committee. This subcommittee has played an important role in 
supporting our Nation's infrastructure, providing additional 
resources for transit, roads, and bridges from HTF as well as 
the General Fund of the Department of the Treasury. In fact, 
the TIGER program was created by this subcommittee.
    This subcommittee has been particularly engaged in 
supporting rail transportation, providing additional funding 
for the high-speed rail grants, and making sure the Department 
has the resources it needs to administer the program.
    As concerned as I am about the future of the surface 
transportation programs, I believe the threats facing the 
President's high-speed rail initiative are potentially even 
greater. I believe in high-speed rail. I think it has the 
ability to spur innovation and economic growth, tying 
communities together in ways that roads and airports don't 
today.
    Unlike most of Europe, we are still a young and growing 
Nation. Our population is projected to reach 420 million by 
mid-century, almost 140 million more than in 2000. If you think 
your travel on roads and airports is crowded today, just wait. 
And building more and wider roads won't be enough. High-speed 
rail, like the Federal Aviation Administration's (FAA) Next 
Generation Air Transportation System (NextGen), is one of the 
solutions we will need if we are to avoid paralyzing gridlock.
    I recognize the Department has had to stand up this 
ambitious new program in record time, hammering out agreements 
with States and freight railroads, with so many questions to be 
answered and problems resolved. I believe the Federal Railroad 
Administration is to be commended for its efforts. And yet, I'm 
concerned these efforts will be for naught, and the funding at 
risk, unless the Department produces a detailed and 
comprehensive plan that answers basic questions about the 
program like, Where does it make the most sense to build high-
speed rail? What will it cost to build? And what will it cost 
to operate? I will continue to fight for high-speed rail, but 
it is now time for the program to produce a compelling and 
rigorous plan to justify that support and future funding.
    Separate from high-speed rail, there are many other issue 
areas where the Department has been pushing for innovation. The 
Department continues to forge ahead on NextGen, a long-term 
effort to modernize our air traffic control system. Last year, 
it took recommendations from an industry task force, refocusing 
some of its programs, like Performance-Based Navigation. This 
past year, the Department has also worked hard to overcome 
challenges with En Route Automation Modernization.
    In the area of highway safety, the Department has led a 
very public campaign to address distracted driving. This past 
week, Secretary LaHood announced a partnership with Consumer 
Reports aimed at getting young people to put down their phones 
while they're behind the wheel. That is an effort that will 
save lives.
    At this hearing, as we continue our work on the budget for 
fiscal year 2012, I look forward to hearing more about the 
Department's work in these and other areas, and appreciate your 
being here again today, Mr. Secretary.

                          PREPARED STATEMENTS

    Also, Senator Kirk regrets that he couldn't be present, but 
he has submitted a statement for the record.
    [The statements follow:]
               Prepared Statement of Senator Patty Murray
    I want to welcome Secretary Ray LaHood back before our subcommittee 
to discuss his Department's budget request and our Nation's 
transportation policy. Thank you for being here today.
    fiscal year 2011 and the house's year-long continuing resolution
    The subject of this hearing is the Department of Transportation 
(DOT) budget for fiscal year 2012.
    Yet even as we sit here today--nearly halfway through the fiscal 
year--the Federal Government still lacks a final budget for fiscal year 
2011.
    The Congress continues to debate that budget as millions of 
families and communities across the country wait anxiously to learn the 
fate of programs they depend upon.
    And this debate is critical. We need to tackle the deficit and make 
sure our children and grandchildren aren't forced to bear the burden of 
overwhelming debt.
    Earlier this week, the Senate voted on two bills--one from House 
Republicans, and the other a Senate Democratic alternative--to fund 
Federal agencies through the end of fiscal year 2011.
    The House proposal was a highly politicized, slash-and-burn budget 
that would have eliminated the high-speed rail and Transportation 
Investment Generating Economic Recovery (TIGER) grants programs, and 
made deep cuts to transit, Amtrak, and aviation spending. In short, it 
was a bill that would have cost hundreds of thousands of jobs and 
eliminated investments the nation will need to compete in the future.
    Transportation is central to so much of the way our lives are 
organized. And there is overwhelming evidence that greater investment 
is needed in communities across the country--whether it be replacing 
crumbling bridges and tunnels, or building new roads and transit lines 
to support economic growth and competitiveness, and ease congestion.
    The DOT budget has a real impact on real people.
    For example, the House Republican budget would eliminate funding 
for the highly competitive TIGER grant program, a program that has 
become a showcase for innovation in both rural and urban communities. 
The House proposal goes so far as to eliminate TIGER grants that were 
awarded to 75 communities last year--the 75 most promising projects out 
of a field of more than 1,000 applicants.
    One of the 75 projects is a project in my home State that typifies 
what these grants mean to all of our States. In south Seattle there is 
a community that is hanging on by a thread. The main access road to 
commerce goes through a bridge that--like infrastructure in all of our 
States--was crumbling and had to be closed.
    I have spoken to the small business owners and residents of this 
community who tell me the bridge is their lifeline. Last year, the 
South Park Bridge won a TIGER grant to help rebuild the bridge. That 
bridge today is creating jobs and aiding the recovery of an entire 
community, and will be a foundation for that community to thrive on for 
generations to come.
    But the funding for this project and many other like it was left on 
the cutting-room floor by House Republicans in an effort to meet an 
arbitrary bottom-line.
    That's wrong. And it's just one example from an extreme plan that 
focuses on short-term and shortsighted cuts, while neglecting a long-
term plan for responsible deficit reduction that supports our economic 
recovery.
    By comparison, the Senate Democratic bill protects these 
investments, choosing instead to end programs that have served their 
purpose or are no longer needed. Our alternative makes responsible and 
practical budget cuts that will allow us to continue out-innovating, 
out-educating, and out-building our competitors.
    As you know, neither bill was able to garner enough votes to win 
passage. A compromise is still needed, one where both sides come to the 
table to work together on a long-term solution that invests in our 
country's future. And as we work to cut spending, we need to make sure 
that we aren't doing anything to threaten our economic recovery or 
cause even more workers to lose their jobs.
    So as we look at the fiscal year 2012 budget, I will be taking the 
responsible approach. I will be analyzing how taxpayer dollars can be 
invested most effectively to:
  --Continue our economic recovery;
  --Improve our economic competitiveness;
  --Strengthen our communities;
  --Ensure safety;
  --Foster innovation; and
  --Manage our Federal resources efficiently.
            the department's budget proposal and safetea-lu
    The investments we make in transportation and in our national 
infrastructure are such an important part of supporting our economy, 
rebuilding our communities, and improving safety.
    And the need to invest in our transportation infrastructure is 
huge. Many of us have already seen the Report Card for America's 
Infrastructure put together by the American Society of Civil Engineers. 
Their overall grade for our Nation's infrastructure is a D, and their 
grade for roads is even more depressing--a D-. Our Nation's rail 
network earned a paltry C-, and transit earned nothing more than a D.
    The President's budget request tries to address this problem, 
asking for a 69-percent increase in funding for DOT. The request 
includes an immediate investment of $50 billion to boost the economy, 
as well as a 6-year reauthorization proposal for surface 
transportation. Clearly, this proposal offers a grand vision for our 
transportation programs.
    I applaud the administration's effort to promote investment in our 
Nation's infrastructure, but I also think we need more than grand 
ideas. We need to discuss real strategies that will make them happen. 
And unfortunately, this budget proposal does not offer us real 
solutions for the challenges we face today.
    When we talk about paying for transportation, the biggest challenge 
we face is the solvency of the Highway Trust Fund (HTF). Even under 
current funding levels--without paying for the additional $50 billion 
in stimulus funding requested by the administration--HTF will be 
bankrupt by the end of fiscal year 2012 or the beginning of 2013.
    The administration has offered to work with the Congress to address 
this problem, but when it comes to discussing specific solutions, the 
President has:
  --Opposed an increase to the gas tax;
  --Opposed the development of a new revenue system based on miles 
        traveled; and
  --Still not offered any proposals for making sure that the trust fund 
        has enough revenues to pay for its budget request.
    I am also concerned about what happens to transportation programs 
in fiscal year 2012. A long-term solution for HTF will not be able to 
solve our immediate crisis. The Congress has already transferred more 
than $34 billion from the General Fund to HTF. I will be interested to 
hear from the Secretary if he thinks another transfer is necessary to 
get through the year, or if he can offer another way to avert a crisis.
    At a time when the House is focusing on slash-and-burn politics, we 
need to see some realistic alternatives being discussed. I am 
disappointed that the budget request does not offer that.
    I'm also troubled by the administration's proposal to reclassify 
transportation programs as purely mandatory funding. This proposal 
helps the administration meet its goal of freezing growth in the 
discretionary budget, but it also means that the administration has 
failed to request about $7 billion for the rail and public transit 
programs that have traditionally been funded with discretionary 
resources. This is a large hole for the Congress to fill from the 
outset.
    More importantly, the proposal leaves the Department without annual 
oversight and input from the Appropriations Committee. This 
subcommittee has played an important role in supporting our Nation's 
infrastructure, providing additional resources for transit, roads, and 
bridges from the trust fund as well as the General Fund of the 
Department of the Treasury. In fact, the TIGER program was created by 
this subcommittee.
    This subcommittee has been particularly engaged in supporting rail 
transportation, providing additional funding for the high-speed rail 
grants, and ensuring that the Department had the resources it needs to 
administer the program.
                            high-speed rail
    As concerned as I am about the future of the surface transportation 
programs, I believe the threats facing the President's high-speed rail 
initiative are potentially even greater.
    I believe in high-speed rail. I think it has the ability to spur 
innovation and economic growth, tying communities together in ways that 
roads and airports don't today. Unlike most of Europe, we are still a 
young and growing Nation. Our population is projected to reach 420 
million by mid-century, almost 140 million more than in 2000. If you 
think travel on our roads and at our airports is crowded today, just 
wait. And building more and wider roads won't be enough.
    High-speed rail, like the FAA's Next Generation Air Transportation 
System (NextGen), is one of the solutions we will need if we are to 
avoid paralyzing gridlock.
    I recognize the Department has had to stand up this ambitious new 
program in record time, hammering out agreements with States and 
freight railroads, with so many questions to be answered and problems 
resolved. I believe the Federal Railroad Administration is to be 
commended for its efforts.
    And yet, I am concerned these efforts will be for naught, and the 
funding at risk, until the Department produces a detailed and 
comprehensive plan that answers basic questions about the program, 
like:
  --Where does it make the most sense to build high-speed rail?
  --What will it cost to build?
  --And what will it cost to operate?
    I will continue to fight for high-speed rail, but it is now time 
for the program to produce a compelling and rigorous plan to justify 
that support--and future funding.
                              other issues
    Separate from high-speed rail, there are many other issues areas 
where the Department has been pushing for innovation.
    The Department continues to forge ahead on NextGen, a long-term 
effort to modernize our air traffic control system. Last year, it took 
recommendations from an industry task force, refocusing some of its 
programs like Performance-Based Navigation. This past year, the 
Department has also worked hard to overcome challenges with the En 
Route Automation Modernization program.
    In the area of highway safety, the Department has led a very public 
campaign to address distracted driving. This past week, Secretary 
LaHood announced a partnership with Consumer Reports aimed at getting 
young people to put down their phones while they are behind the wheel, 
an effort that will save lives.
    At this hearing, and as we continue our work on the budget for 
fiscal year 2012, I look forward to hearing more about the Department's 
work in these areas.
                                 ______
                                 
                Prepared Statement of Senator Mark Kirk
    Thank you Chairwoman Murray and Ranking Member Collins. I also 
would like to welcome Secretary LaHood, my former colleague for many 
years.
    Madam Chairwoman, as you know the focus of the Congress and the 
American people is on our unsustainable spending. During the first 9 
weeks of 2011, Federal debt increased at an average of $35.6 billion 
per week. At the end of 2010, total public debt outstanding stood at 
$13.9 trillion; and the end of February, it had increased to $14.2 
trillion--a $300 billion increase. The Department of the Treasury has 
auctioned nearly $1.1 trillion since the beginning of the year. That is 
an average of $121.5 billion per week.
    Recently the Senate was presented with two long-term continuing 
resolutions funding the Government, and rejected both. It's my hope 
that we can come together to examine ways we can rein in spending and 
restore confidence in the dollar.
    This will not come easily, and will require shared sacrifice at 
every level of the Federal Government.
    Now I fully recognize the economic impact of investing in 
infrastructure and one of the key reasons why I voted against the 
stimulus was that it focused too many resources on social spending in 
comparison to investments made in infrastructure. But I worry that the 
fiscal year 2012 request, while bold, is light on details regarding how 
we will fund a 6-year, $556 billion surface transportation 
reauthorization. Mr. Secretary, I know you have told the Commerce 
Committee that DOT is currently working with the Office of Management 
and Budget on that very issue, and I look forward to seeing the result.
    I'll have a few other issues to highlight during questions, but 
good to see you on this side of the Capitol, Mr. Secretary--I look 
forward to working with you in the Senate. Thank you, Madam Chairwoman.

    Senator Murray. With that, I will recognize my partner and 
ranking member, Senator Collins, for any opening remarks she 
would like to make.

                   STATEMENT OF SENATOR SUSAN COLLINS

    Senator Collins. Thank you, Chairman Murray.
    First of all, welcome, Secretary LaHood. I appreciate your 
leadership at DOT, and as the new ranking member of this 
subcommittee, I look forward to working with you, the chairman, 
and all of our colleagues to promote fiscally responsible 
investments in our Nation's aging transportation 
infrastructure.
    As Senator Murray has pointed out, the transportation 
system is truly the lifeline for our country and our economy. 
Improving the efficiency and reliability of our Nation's 
transportation system is vital to the movement of people, 
freight, and goods. Yet, every single State has a backlog of 
vital transportation projects.
    The administration is proposing a $129 billion budget for 
DOT, a 66-percent increase more than the fiscal year 2010 
enacted level. Included in this budget request is a 6-year, 
$556 billion surface transportation reauthorization, but 
without a revenue mechanism to pay for it. HTF can only support 
approximately a $240 billion program over the next 6 years. An 
additional $167 billion in new revenues would have to be 
established to support a bill of that magnitude, but the 
administration has yet to specify the source of these revenues, 
as the chairman has pointed out.
    I also want to associate myself with the comments of 
Senator Murray about the TIGER program. Capital investments in 
transportation projects through the TIGER program have been an 
important tool in helping to save and create jobs at a time 
when so many families are struggling. And the TIGER program has 
resulted in needed, lasting assets for communities. I, too, am 
disappointed that the House of Representatives passed a budget 
bill that included language to rescind funding for this 
important program. It is fundamentally unfair for the Federal 
Government to award grants to States, only then to take them 
away. I'm going to continue working with the chairman, and 
others who feel that way, to ensure that the final version of 
the continuing resolution, or appropriations bill, does not 
include that language.
    I worked closely with the Secretary and appreciate his 
leadership to ensure that the necessary paperwork was concluded 
at both the State and Federal level for the Aroostook County 
Rail Preservation Project. But, I remain concerned about the 
fate of the funding for the Memorial Bridge replacement 
project. That is a major bridge that connects New Hampshire and 
Maine. It has been strongly supported by the delegations of 
both States. And replacing the Memorial Bridge is an important 
infrastructure project that is essential to the flow of goods, 
services, and people between Maine and New Hampshire, and for 
keeping and attracting new jobs to both States. Its funding is 
now in jeopardy because of the House language.
    Many smaller-scale transportation projects also help to 
build infrastructure and create jobs in our local communities. 
For example, in Maine's capital city of Augusta, a new regional 
hospital is being constructed, just yards from Interstate 95 
(I-95). There is, however, no convenient way to exit the 
interstate and arrive at the new hospital. The hospital, the 
State, and the local community of Augusta have all pledged 
funding for the project. This is a perfect example of a 
partnership project where everyone from the private sector, the 
capital city of Augusta, and the State are kicking in funds to 
make the improved transportation a reality. But they can't do 
it alone. They need the Federal Government to complete the 
piece of the puzzle. We need to ensure that funding is 
available for smaller communities and rural communities where 
there is local support and committed funding for meeting these 
needs, as there is in this example.
    Not only do we need to continue our commitment to making 
investments in infrastructure, but also we must continue to 
improve highway safety. The chairman mentioned and commended 
the Secretary for his initiatives on distracted drivers. I know 
the Department has also done a great deal to look at the Toyota 
case and other issues involving questions that have arisen 
about vehicle safety.
    The States of Maine and Vermont recently participated in a 
year-long pilot project that I authored that allowed trucks 
weighing up to 100,000 pounds to travel on those States' 
Federal interstates. Senator Leahy joined me in this effort to 
help provide a level playing field for our States, and allow 
heavy trucks to use our most modern, safe, and efficient 
highways. In 2010, as a result of our pilot project, people 
throughout our two States saw their roads less congested, our 
downtowns and secondary roads safer, our air cleaner, and our 
businesses more competitive, since the surrounding States 
already have these exemptions, as do the two provinces in 
Canada that border Maine. And that is why I'm committed to 
fighting to make this pilot project, which unfortunately 
expired in December, permanent.
    I would note that all the public safety groups in Maine, 
including the Maine Association of Police, the Maine State 
Police, the Maine State Troopers Association, the Maine 
Department of Public Safety, and the Maine Chiefs of Police 
strongly support a permanent extension of the pilot project.
    A recent study by the Maine State Police Commercial Vehicle 
Enforcement Division found fewer accidents involving trucks 
during the time that the pilot project was in effect. Countless 
Maine business owners have told me how this change would 
improve their competitiveness. For example, under the pilot 
project, Lincoln Paper and Tissue, a manufacturer in Lincoln, 
Maine, was able to save 1.1 million billable truck miles, a 28-
percent decrease from the prior year. These savings are the 
equivalent of the company being 220 miles closer to its primary 
market. That benefits not only the small business, but also our 
Nation, as we seek to reduce overall fuel consumption and 
reduce carbon emissions.
    [The information follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    The people of my State are very unhappy that the heaviest 
trucks are once again being forced onto secondary roads and 
into downtowns, when they belong on the interstates.

                           PREPARED STATEMENT

    I look forward to working with you, Madam Chairman, as well 
as Secretary LaHood, as we consider this issue and the 
Department's overall fiscal year 2012 budget request.
    Thank you.
    [The statement follows:]
              Prepared Statement of Senator Susan Collins
    Thank you, Chairman Murray. Welcome, Secretary LaHood. I appreciate 
your leadership at the Department of Transportation (DOT) and look 
forward to working together to promote fiscally responsible investments 
in our Nation's aging transportation infrastructure.
    The transportation system is the lifeline for our country and our 
economy. Improving the efficiency and reliability of the Nation's 
transportation system is vital to the movement of our freight and 
goods, yet every State has a backlog of vital transportation needs.
    The administration is proposing a $129 billion budget for DOT, a 
66-percent increase more than the fiscal year 2010 enacted level. 
Included in this budget request is a 6-year, $556 billion surface 
transportation reauthorization, but without a revenue mechanism to pay 
for it. The Highway Trust Fund can only support a $240 billion program 
over the next 6 years. An additional $167 billion in new revenues would 
have to be established to support a bill of this magnitude, but the 
administration has yet to specify the source of these revenues.
    Capital investments in transportation projects through the 
Transportation Investment Generating Economic Recovery (TIGER) program 
have been an important tool in helping to save and create jobs that so 
many families need right now. I am disappointed that the House of 
Representatives passed a bill that included language to rescind funding 
for this important program. As a result of this language, the State of 
Maine was at risk of losing funding for two critical projects that were 
awarded last October--the Aroostook Rail Preservation project and the 
Memorial Bridge Replacement project. It is fundamentally unfair for the 
Federal Government to award grants to States only to have them taken 
away.
    I worked closely with Secretary LaHood and appreciate his 
leadership to ensure the necessary paperwork was concluded at both the 
State and Federal level for the Aroostook Rail Preservation project. I 
remain concerned about the fate of the funding for the Memorial Bridge 
replacement project. Replacing the Memorial Bridge is an important 
infrastructure project that is essential to the flow of goods, 
services, and people between Maine and New Hampshire and for keeping 
and attracting new jobs to our States.
    Many smaller-scale transportation projects also help build 
infrastructure and create jobs in our local communities. For example, 
in Maine's capital city of Augusta, a new regional hospital is being 
constructed just yards from Interstate 95 (I-95). There is, however, no 
convenient way to exit the interstate and arrive at the new hospital. 
The hospital, the State, and the local community have all pledged 
funding for this project. We should ensure funding is available for 
smaller and rural communities where there is local support and 
committed funding for these needs.
    Not only do we need to continue our commitment to making 
investments in our infrastructure, but also we must continue to improve 
highway safety. The States of Maine and Vermont recently participated 
in a year-long pilot project that allowed trucks weighing up to 100,000 
pounds to travel on their Federal interstates. Senator Leahy joined me 
in this effort to help provide a level playing field for our States and 
allow heavy trucks to use our most modern, safe, and efficient 
highways.
    In 2010, as a result of this pilot project, people throughout our 
State saw their roads less congested, our downtowns and secondary roads 
safer, our air cleaner, and our businesses more competitive. That is 
why I am committed to fighting to make this pilot program, which 
expired in December, permanent.
    Let me give a specific example of these results. On a trip from 
Hampden to Houlton, Maine, the benefits are very clear. A truck 
traveling on I-95 rather than on State Route 2, which runs nearly 
parallel to I-95, avoids more than 270 intersections, nine school 
crossings, 30 traffic lights, and 86 crosswalks. In addition, a driver 
also saves more than $30 on fuel. Given the rising cost of diesel, it 
is even higher than that now. Additionally, 50 minutes is saved by 
traveling on I-95 rather than on the secondary road of Route 2.
    Public safety groups in Maine, including the Maine Association of 
Police, the Maine State Police, the Maine State Troopers Association, 
the Maine Department of Public Safety, and the Maine Chiefs of Police 
all support a permanent extension of the pilot project. Bangor's Chief 
of Police, Ron Gastia, recently noted that, ``I, along with chiefs 
across Maine, recognize that trucks of this size do not belong on 
Maine's city streets and secondary roads.''
    A recent study by the Maine State Police Commercial Vehicle 
Enforcement Division reported that in 2009, before the pilot came into 
effect, 139 accidents involving six-axle trucks occurred in Maine. In 
2010, the year the pilot was in effect, the number of accidents fell to 
125. That's 14 fewer accidents as a result of allowing these trucks to 
operate on all of Maine's interstates.
    Countless Maine small business owners have told me how this change 
would improve their competitiveness. For example, under the pilot 
project, Lincoln Paper and Tissue, a paper and tissue manufacturer in 
Lincoln, Maine, was able to save 1.1 million billable truck miles, a 
28-percent decrease from the prior year. These savings are the 
equivalent of the company being 220 miles closer to its primary market. 
That benefits not only this small business but also our Nation as we 
seek to reduce our overall fuel consumption and reduce carbon 
emissions.
    We need to make the pilot project permanent. The people of my State 
are unhappy that the heaviest trucks are once again forced onto 
secondary roads and into downtowns when they belong on the interstates.
    I am looking forward to working with you Chairman Murray as well as 
Secretary LaHood as we consider DOT's fiscal year 2012 budget request.

    Senator Murray. Thank you, Senator Collins.
    We'll now turn to our members for any opening statements 
they have, and then to you, Mr. Secretary.
    Senator Pryor.
    Senator Pryor. I don't have anything.
    Senator Murray. Okay.
    Senator Coats.
    Senator Coats. No, I'm fine.
    Senator Murray. Senator Blunt.

                     STATEMENT OF SENATOR ROY BLUNT

    Senator Blunt. Madam Chairman, I'd just like to say, I'm 
pleased to see my good friend Secretary LaHood here, and know 
he's got a big job. And after those two opening statements, it 
sounds even bigger to me.
    So, we look forward to working with you. Transportation is 
clearly one of the critical keys to our ability to compete and 
create jobs and opportunity. And Mr. Secretary, I'm glad you're 
here today, and look forward to working with you through this 
budget process that we're beginning today for next year. Too 
bad that we're still focused on last year's budget process, but 
maybe we'll get into a pattern here that actually makes sense 
to the American people and to the people doing the kinds of 
jobs you're doing.
    Senator Murray. Thank you very much.
    Mr. Secretary, we will turn to you for your opening 
statement.

                  SUMMARY STATEMENT OF HON. RAY LAHOOD

    Secretary LaHood. Thank you, Chairman Murray, and Ranking 
Member Collins, and to the other Senators who are here, for the 
opportunity to discuss President Obama's fiscal year 2012 
budget request for DOT.
    Just a few weeks ago, President Obama delivered a powerful 
message in his State of the Union Address. He said that, for 
Americans to win the future, our citizens and companies need 
the safest, fastest, most reliable ways to move goods and 
information. He reminded us that if we build it, they will 
come. If we want businesses to open shop and hire our families, 
friends, and neighbors, we have to invest in our roadways, 
railways, and runways. We have to invest in 21st-century buses, 
streetcars, and transit systems, and we have to invest in next-
generation technology for our skies, and in sidewalks and bike 
paths that make our streets more livable. All of this is 
included in the President's $129 billion fiscal year 2012 
budget for DOT, designed as the first installment of a bold 6-
year, $556 billion reauthorization proposal.
    To make room for these essential investments, President 
Obama's fiscal year 2012 budget proposes the lowest relative 
level of domestic spending since President Eisenhower was in 
office six decades ago. That was 10 administrations ago, if 
you're counting.
    The simple fact is that we have to cut and consolidate 
things that aren't growing the economy, creating jobs, or 
making it easier to do business, in order to pay for the things 
that are. So, at DOT, President Obama's budget slashes red 
tape. It consolidates more than 50 programs, and it includes 
reforms that will accelerate project delivery and empower local 
communities.
    Of course, our major objective is to make investments in 
tomorrow that expand economic opportunity today, to dream big 
and to build big. That's why this budget keeps us on track 
toward a national high-speed rail system with an $8 billion 
investment in 2012 and a $53 billion investment over the next 6 
years. It increases resources for highway and bridge 
improvements by 48 percent. It increases funding for 
affordable, efficient, and sustainable bus, streetcar, and 
transit systems by 126 percent. It includes $50 billion up 
front to keep our recovery moving in the short term, and a $30 
billion National Infrastructure Bank that will finance major 
projects of national regional significance over the long run.
    At the same time, safety is, and always will be, our top 
priority. President Obama's budget renews our commitment to 
prevent traffic crashes with resources for our ongoing campaign 
against distracted driving, drunk driving, and to promote 
seatbelt use. The President's proposal requests new authority 
for the Federal Transit Administration to ensure the safety of 
rail transit riders across America, and it gives the Federal 
Motor Carrier Safety Administration stronger capacity to keep 
commercial traffic safe.
    Finally, we're dedicated to doing all of this without 
passing on another dime of debt to our children or 
grandchildren. For the first time, transportation spending will 
be subject to pay-go provisions that ensure the dollars we give 
out do not exceed the dollars coming in.
    So, these are just a few components of the President's 
plan. They reflect a much larger point: America's 
transportation system is at a crossroads. Our choice isn't 
between policies on the left or policies on the right. Our 
choice is whether our economic recovery rolls forward or falls 
backward. It's up to us whether we lay a new foundation for 
economic growth, competitiveness, and opportunity, or whether 
we settle for a status quo that leaves America's next 
generation of entrepreneurs, our children and grandchildren, 
with clogged arteries of commerce.

                           PREPARED STATEMENT

    It's up to us whether we do big things or whether we do 
nothing. If we choose wisely, our legacy can be an economy on 
the move and a future that America is prepared to win.
    I'll be happy to answer questions.
    Thank you.
    [The statement follows:]
                 Prepared Statement of Hon. Ray LaHood
    Chairman Murray, Ranking Member Collins, and members of the 
subcommittee, thank you for the opportunity to appear before you today 
to discuss the administration's fiscal year 2012 budget request for the 
Department of Transportation (DOT). The President is requesting $129 
billion for Transportation in fiscal year 2012. This includes the 
first-year of a bold new 6-year $556 billion reauthorization proposal 
that will transform the way we manage surface transportation for the 
future.
    America is at a transportation crossroads. To compete for the jobs 
and industries of the future, we must out-innovate and out-build the 
rest of the world. That is why President Obama called on the Nation to 
repair our existing roadways, bridges, railways, and runways and to 
build new transportation systems--including a national high-speed 
intercity rail network--which will safely and efficiently move people 
and goods. The administration's Surface Transportation Reauthorization 
proposal is designed to accomplish precisely this, and is the 
centerpiece of the President's fiscal year 2012 budget.
    It proposes four broad goals:
  --building for the future;
  --spurring innovation;
  --ensuring safety; and
  --reforming Government and exercising responsibility.
    The fiscal year 2012 proposal includes a $50 billion ``up-front'' 
economic boost that is designed to jump-start job creation while laying 
the foundation for future prosperity. This initial funding would 
finance improvements to the Nation's highway, rail, transit, and 
aviation systems.
                        building for the future
    America's aging roads, bridges, and transit systems must be 
addressed. For too long we have put off the improvements needed to keep 
pace with today's transportation needs. By 2050, the United States will 
be home to 100 million additional people--the equivalent of another 
California, Texas, New York, and Florida. More than 80 percent of them 
will live in urban areas. Concerns about the need for livable 
communities will increase as communities tackle the need for 
transportation choices and access to transportation services. If we 
settle for the status quo, our next generation of entrepreneurs will 
find America's arteries of commerce impassably clogged and our families 
and neighbors will fight paralyzing congestion. So the administration's 
proposal addresses this challenge in three ways:
  --Creating a National High-Speed Rail Network.--First, the proposal 
        provides $53 billion over 6 years to continue construction of a 
        national high-speed rail network. It will place high-speed rail 
        on equal footing with other surface transportation programs; 
        include funding for both Amtrak and new ``core express,'' 
        ``regional,'' and ``emerging'' corridors; and keep the country 
        on track toward achieving a goal of providing 80 percent of 
        Americans with access to an intercity passenger rail network, 
        featuring high-speed rail within 25 years.
  --Rebuilding America's Roads and Bridges.--Second, the 
        administration's proposal will provide a 48-percent funding 
        increase--to $336 billion over 6 years for road and bridge 
        improvements and construction. A key element expands the 
        current National Highway System to include an additional 
        220,000 miles of critical arterials. It will also simplify the 
        highway program structure, accelerate project delivery to 
        realize the benefits of highway and bridge investments for the 
        public sooner, and underscore the importance of maintaining 
        existing highway infrastructure in good condition. These 
        investments and reforms will modernize our highway system while 
        creating much-needed jobs.
  --Investing in Accessible, Affordable Transit Options.--Third, the 
        proposal will provide a 128-percent increase in funding--to 
        $119 billion over 6 years--for affordable, efficient, and 
        sustainable transit options. It will prioritize projects that 
        rebuild and rehabilitate existing transit systems, including an 
        important new transit safety program, and allow transit 
        authorities (in urbanized areas of 200,000 or more in 
        population) to temporarily use formula funds to cover operating 
        costs.
                          spurring innovation
    The administration's Surface Transportation Authorization proposal 
acknowledges the important role that innovation and modern business 
tools play in putting our transportation dollars to work wisely. We can 
no longer afford to continue operating our systems the same way we did 
50 years ago, with outdated processes and financial tools that were 
made for yesterday's economy. Our proposal and the President's fiscal 
year 2012 request responds to this challenge in several ways.
    It establishes a National Infrastructure Bank (NIB) to finance 
projects of national or regional significance. By working with credit 
markets and private-sector investors, the NIB will leverage limited 
resources to achieve maximum return on Federal transportation dollars. 
The NIB will initially receive $30 billion over 6 years, will reside 
within DOT, and will be managed by an executive director with a board 
of officials drawn from other Federal agencies.
    Recognizing that competition often drives innovation, the 
administration's proposal and the President's fiscal year 2012 budget 
also includes a $32 billion competitive grant program called the 
Transportation Leadership Awards. This program's goal is to reward 
States and local governments that demonstrate transformational policy 
solutions. Examples include the use of innovative multimodal planning 
and funding methods, pricing and revenue options, land-use guidelines, 
environmental stewardship measures, economic development strategies, 
innovation of project delivery, and deployment of technology--just to 
name a few possibilities.
    These new and innovative tools will help us to better meet the 
transportation needs of America's small towns and rural communities. 
Increased highway funding will expand access to jobs, education, and 
healthcare. Innovative policy solutions will ensure that people can 
more easily connect with regional and local transit options--and from 
one mode of transportation to another.
    At the same time, our proposal will bolster State and metropolitan 
planning; award funds to high-performing communities; and empower the 
most capable communities and planning organizations to determine which 
projects deserve funding.
    Innovation must span beyond surface transportation. This is why the 
President's budget request also includes $3.4 billion for aviation in 
the $50 billion ``up-front'' investment. The budget requests $3.1 
billion for airport improvements for runway construction and other 
airport projects such as Runway Safety Area improvement projects as 
well as noise mitigation projects. Modernizing our air traffic control 
systems is critical if we are to meet the needs of the future. The 
President's fiscal year 2012 budget addresses this by providing $1.24 
billion for the Federal Aviation Administration's (FAA) efforts to 
transition to the Next Generation (NextGen) of Air Traffic Control. 
This funding will help the FAA move from a ground-based radar 
surveillance system to a more accurate satellite-based surveillance 
system--the backbone of a broader effort to reduce delays for 
passengers and increase fuel efficiency for carriers.
                            ensuring safety
    Keeping travelers on our transportation systems safe is my top 
priority. That is why preventing roadway crashes continues to be a 
major focus at DOT. The administration's Surface Transportation 
Reauthorization proposal will provide $330 million for the ongoing 
campaign against America's distracted driving epidemic. It will also 
commit $7 billion to promote seatbelt use, get drunk drivers off the 
road, and ensure that traffic fatality numbers continue falling from 
current historic lows. In addition, it almost doubles the investment in 
highway safety, providing $17.5 billion to Federal Highway 
Administration (FHWA) safety programs. The Department is also taking a 
fresh approach to interstate bus and truck safety. Compliance, Safety, 
Accountability (CSA) is a new initiative that will improve safety and 
use resources more efficiently. The administration's Surface 
Transportation Reauthorization proposal will dedicate $4.9 billion to 
the Federal Motor Carrier Safety Administration (FMCSA), and give DOT 
new authority to set tougher safety performance goals for States.
    Transit safety is another important priority. Our proposal will, 
for the first time, entrust the Federal Transit Administration with the 
authority to oversee rail transit safety across America. In light of 
recent transit-related accidents, I believe this is critical to 
ensuring the oversight and accountability our transit riders deserve.
    Our safety focus must also include the transportation of hazardous 
materials and our network of pipelines. The administration's Surface 
Transportation Reauthorization proposal will fund the safety programs 
of the Pipelines and Hazardous Materials Safety Administration (PHMSA) 
and will enhance its authorities to close regulatory loopholes and 
improve its safety oversight. The President's fiscal year 2012 budget 
requests $221 million for PHMSA to help ensure that families, 
communities, and the environment are unharmed by the transport of 
chemicals and fuels on which our economy relies.
           reforming government and exercising responsibility
    As we move forward together to plan for America's transportation 
needs, we must also keep in mind the responsibility we all share for 
using taxpayer dollars wisely. The administration's Surface 
Transportation Reauthorization proposal will cut waste, inefficiency, 
and bureaucracy so that projects can move forward quickly, while still 
protecting public safety and the environment.
    Our proposal consolidates and streamlines our current Highway and 
Transit Programs in a major way. The current system of more than 55 
separate highway programs will be folded into five new categories. 
Similarly, six transit programs are merged into one ``state of good 
repair'' program and one ``specialized transportation'' program. As a 
result of these changes, we expect to shorten project delivery and 
accelerate the deployment of new technologies.
    The Administration's Surface Transportation Reauthorization 
proposal also includes important reforms that change the way we manage 
our transportation spending. Consistent with the recommendations of the 
Fiscal Commission, for the first time, the budget proposes to subject 
surface transportation spending to ``paygo'' provisions to make certain 
that spending does not exceed dedicated revenue. This approach is 
designed to ensure that our surface transportation program is paid for 
fully without increasing the deficit. The proposal will also expand the 
current Highway Trust Fund into a new Transportation Trust Fund with 
four accounts--one for highways, one for transit, one for high-speed 
passenger rail, and one for the NIB.
                            other highlights
    The President's fiscal year 2012 request includes some other key 
transportation priorities as well. These include the $18.7 billion in 
total funds requested for FAA. FAA would receive $9.8 billion to fund 
the operation, maintenance, communications, and logistical support of 
the air traffic control and air navigation systems. An additional $3.1 
billion would support FAA's Facilities and Equipment program to fund 
FAA's capital projects. A total of $5.1 billion in fiscal year 2012 
would fund the Airport Improvement Program when funding from the $50 
billion ``up-front'' investment is included.
    The President's request also includes $93 million for the U.S. 
Merchant Marine Academy (USMMA). Of these funds, $29 million will be 
used to support the next phase of the USMMA's Capital Asset Management 
program and for renovations to selected barracks and the mess hall. 
These improvements will help ensure that our cadets have the facilities 
they need to support their education.
                               conclusion
    Thank you for the opportunity to appear before you to present the 
President's fiscal year 2012 budget proposal for DOT and our Surface 
Transportation Reauthorization proposal that will help transform 
transportation programs over the next 6 years in ways that will benefit 
all Americans for years to come. I look forward to working with the 
Congress to ensure the success of this request.
    I will be happy to respond to your questions.

                                 H.R. 1

    Senator Murray. Thank you very much, Mr. Secretary.
    I will begin by asking you--well, actually, just let me 
say, I'm really troubled by the harsh cuts that the House is 
proposing to make in the transportation programs that are so 
important. I talked a little bit in my opening statement about 
high-speed rail and TIGER. There are deep cuts to transit and 
FAA, and I think these are really shortsighted. This is less a 
debate about taming the deficit, which we all agree we need to 
be doing, but it really is a question of priorities and a 
statement about what we are going to look like in the future. 
And I wanted to ask you this morning, while you're here, do you 
have an estimate for the number of jobs that would be lost as a 
result of the cuts the House is proposing now to make in 
transportation?
    Secretary LaHood. I don't know the estimate of jobs as a 
result of H.R. 1, but I will tell you that as a result of what 
you all did, in providing DOT $48 billion in the stimulus 
program, we were able to create 15,000 projects over 2 years, 
and 65,000 jobs were created. So, if that's any indication--$48 
billion, 15,000 projects, 65,000 jobs over 2 years, as a result 
of the stimulus--a lot of jobs, a lot of projects that would 
not have been created if the Congress had not passed on $48 
billion, which we now have out the door and have put a lot of 
Americans to work.
    Senator Murray. And I would just have to add that those are 
private contractors that get those jobs.
    Secretary LaHood. That's correct.
    Senator Murray. They're not government jobs. We give this 
money to private contractors----
    Secretary LaHood. That's correct. The money goes, in the 
case of TIGER and the case of many of these other programs, 
directly to the people that provide civilian jobs. A lot of 
small businesses benefited; more importantly, a lot of 
Americans benefited. Our friends and neighbors around the 
country benefited in good-paying jobs, and America's 
infrastructure was rebuilt.
    Senator Murray. Yes.
    Both Senator Collins and I mentioned concerns about the 
TIGER grants that would be rescinded by the House budget 
proposal. What are you hearing from other communities that were 
awarded TIGER grants last year?
    Secretary LaHood. I'm hearing from a lot of Members of 
Congress, both Republicans and Democrats, who are very 
concerned that we made a commitment. I appreciate what both you 
and the ranking member have said about TIGER. These are 
commitments that have been made. Senators and Congressmen are 
asking me: ``Can you obligate the money so it can't be 
rescinded?'' The answer is, even if the money is obligated, the 
Congress can do whatever it wants. We made a commitment, to 
people all over the country, for good projects--for freight 
projects, for light rail, for highways, for bridges. These 
projects were not earmarked. They weren't sweetheart deals or 
boondoggles. These are projects that people out in the country 
said needed to be done to put people to work. The TIGER program 
is a jobs program. There are going to be a lot of people who 
aren't going to go to work as a result if these monies are 
rescinded. What I'm saying to every Senator, both Republican 
and Democrat, and House Member is, I know you want your money 
obligated. I just talked to a Senator on the way over here in 
my vehicle, who was talking to me about his TIGER project. He 
didn't realize that, even if it's obligated, there's still a 
chance that you all could rescind it. That's not fair to the 
people who thought they were going to get this money. It's not 
fair to the people who thought they were going to have a job on 
the other side of these projects.
    This TIGER program is a jobs program. So, for all the talk 
of all Members of Congress who want to put people to work, this 
is the way to do it: Keep our commitments.
    Senator Murray. In a competitive program, I would add.
    Secretary LaHood. Absolutely. No earmarks. No sweetheart 
deals. No boondoggles, they are all done the correct way. 
You're not going to see any stories written about DOT giving 
money out to somebody in any other way except in a competitive 
fashion--that was competed in a way that reflects that these 
are good projects. This program will create jobs.

                    STATUS OF THE HIGHWAY TRUST FUND

    Senator Murray. Thank you very much for that.
    Let me ask you about HTF. Keeping enough balances in HTF 
has been an ongoing problem now for 3 years. And now we expect 
HTF to again slip into bankruptcy by the end of fiscal year 
2012. You've offered to work with us on a long-term solution, 
and that work will be a vital part of developing a 
reauthorization plan. I know that. But in the meantime, this 
subcommittee needs to develop a budget for your Department for 
2012. And a new revenue plan will not fix HTF quickly enough to 
get us out of this immediate crisis.
    Do you believe that another transfer from the General Fund 
of the Department of the Treasury will be necessary to sustain 
HTF through 2012?
    Secretary LaHood. Our smart budget people, one of whom is 
sitting next to me, Chris Bertram, who comes from this part of 
the world--Chris worked in the Senate, and he's very smart on 
this--our people believe that HTF has sufficient funds to stay 
solvent through fiscal year 2012.
    Senator Murray. You do.
    Secretary LaHood. Yes.
    Senator Murray. Okay. If that changes, we'd like to be 
told----
    Secretary LaHood. Absolutely.
    Senator Murray [continuing]. As soon as possible. And we 
will----
    Secretary LaHood. You'll be the first to know.
    Senator Murray [continuing]. Need your recommendation on 
how we're going to deal with that.
    Secretary LaHood. Absolutely.
    Senator Murray. All right.
    Senator Collins.

                         HOURS OF SERVICE RULE

    Senator Collins. Thank you, Madam Chairman.
    I'm surprised to hear the Secretary's last comment, but 
pleased to hear it. We're still going to have a challenge of 
the reauthorization, which was put in the budget, goes through, 
because we're going to have to work to figure out how to fund 
that, as well.
    Mr. Secretary, one of the issues that I'm hearing the most 
about is the Department's proposed change to the hours-of-
service rules for commercial truck drivers. And I've heard a 
lot from truckers in my State who are opposed to the changes, 
as well as from trucking businesses. But, yesterday I also met 
with a State trooper who is head of the Commercial Vehicle 
Division for the State of Maine, and he expressed opposition, 
as well, and called the changes ``unenforceable.''
    What is the status of those rules? And second, is the 
administration working with stakeholders, with the trucking 
association, and with law enforcement to try to take into 
account some of the comments in opposition?
    Secretary LaHood. We have a rule pending, Senator. I know 
that what I'm going to say, you already know. This problem has 
been kicked down the road for 10 years. So, I made a decision; 
we're not going to kick it down the road anymore. We developed 
a rule, in cooperation with our friends in the trucking 
industry--and we have friends in the trucking industry--and 
we've developed a rule. It's out there. People can comment on 
it. I know that the truckers are not happy with this.
    We believe that what we've developed is a very good safety 
metric for making sure that drivers will drive safely, and do 
it a certain number of hours. We believe what we've developed 
is the safety metric that makes the most sense. We know people 
don't agree with us, and that's why, when we do these rules, we 
have lots of opportunities for people to comment.
    We need to do something. A court has ruled that we need to 
do something on this issue. We're not going to just sit back 
and kick it down the road like others have done. We're not 
going to do that. So, we've put it out there. Senators or House 
Members may disagree with us, and the trucking companies, I 
know, are going to be talking to you about it. My suggestion 
is, look at our rule, see what you think about it, make a 
comment about it, put it in the Federal Register, and then 
we'll see where it takes us.
    Senator Collins. It's good to know that all the comments, 
I'm sure, will be fully evaluated.
    Secretary LaHood. Absolutely. They will be. In the end, 
we'll take that into consideration when we put the final rule 
together.

                   MOTOR CARRIER WEIGHT RESTRICTIONS

    Senator Collins. Let me turn to a second safety issue, 
which I alluded to--more than alluded to--in my opening 
statement. And I do this----
    Secretary LaHood. We have multiple----
    Senator Collins. I'm glad you've got----
    Secretary LaHood [continuing]. Copies of this map.
    Senator Collins. My favorite chart. And this is not only to 
talk to the Secretary, who's probably tired of hearing from me 
on this issue, but also to talk to my colleagues. So, I hope 
the staff has passed out a copy to each of my colleagues.
    [The information follows:]
    
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    This is a specific example of the results of the pilot 
project that I referred to in my opening statement. And if you 
take a trip from Hampden to Houlton, Maine, the benefits are 
very clear, and they're illustrated on this chart.
    A truck traveling on I-95 rather than Route 2, which runs 
nearly parallel to I-95, avoids more than 270 intersections--
zero on I-95, obviously--270 intersections. It avoids nine 
school crossings, 30 traffic lights, and 86 crosswalks. And 
that's why our State safety officers, from the troopers to the 
police chiefs, are so much in favor of making this pilot 
project permanent. And it's why you've seen the accident rate 
decline.
    In addition--and this is so important at a time when diesel 
prices are climbing through the roof--a driver saves more than 
$30 on fuel. That's an old figure. I'm sure it's way more than 
that now. Additionally, 50 minutes of driving time is saved by 
traveling on I-95 rather than on the secondary route.
    I want to express my appreciation to the administration for 
endorsing making this pilot project permanent. I know it was 
included in the budget that was sent up by the administration. 
And I just hope that we can continue to work together to make 
this a reality. If we can't get a permanent program, then 
perhaps we could work on a 5-year extension, which would allow 
even more data to be collected.
    Secretary LaHood. Absolutely. I know this is a very serious 
problem. We've had lots of discussions about this with you and 
other people in your State. We will continue and are committed 
to work with you on this.
    Senator Collins. Thank you, Mr. Secretary.
    Thank you.
    Senator Murray. Thank you.
    Senator Pryor.
    Senator Pryor. Thank you, Madam Chair.

                          TOYOTA INVESTIGATION

    Mr. Secretary, it's good to see you again.
    Secretary LaHood. Thank you.
    Senator Pryor. Thank you again for your willingness to 
always be available and responsive on all of our needs and all 
of our questions. So, thank you very much for that.
    Let me start with the National Highway Traffic Safety 
Administration (NHTSA), and let me compliment one of the folks 
on your team: David Strickland. I think he's doing a good job 
there. He----
    Secretary LaHood. Thank you.
    Senator Pryor [continuing]. Has his hands full with a lot 
of different things, and I know you've loaded him up with lots 
of work and lots of initiatives.
    Secretary LaHood. You trained him well.
    Senator Pryor. I'm glad to see that he's doing well there.
    Let me ask, as a follow-up to the Toyota investigation that 
has been going on over the last year or more, has that resulted 
in any changes in the agency? And the reason I ask that is 
because I know that one of the recommendations was that maybe 
NHTSA and DOT didn't have enough engineers with real technical 
expertise to evaluate some of the new software that's in 
vehicles. They're not all mechanical anymore. It's largely done 
by software now. Have there been lessons learned? And does your 
budget reflect those lessons?
    Secretary LaHood. As a result of the hearings last year, 
Senator, we believe that, with respect to Toyota, the sticky 
pedal and the floormat entrapment were the cause of that 
terrible accident in California, and other accidents. It led us 
to require that Toyota fix both of those issues. Every Member 
of Congress, at the time, thought it was an electronics issue. 
Our people didn't think that, but we engaged the National 
Aeronautics and Space Administration (NASA) in this, and they 
took a year to complete a study. They found the same thing we 
found. It's not electronics.
    We, in our budget, are proposing additional electrical 
engineers. That's one of the things that the Congress pointed 
out to us, and I think it was a deficiency. If you look in our 
budget, we've requested additional expertise, particularly as 
it relates to electrical engineers.
    Senator Pryor. Right. Then the second part of my question 
is: I noticed, in your budget, you've added about $19.8 million 
more than the fiscal year 2010 levels for staffing at NHTSA. 
And is that correct?
    Secretary LaHood. Yes, it is.
    Senator Pryor. Is that engineers and----
    Secretary LaHood. Yes, sir. It's electrical engineers and 
other engineers, and people with expertise that can really help 
us do our job.
    Senator Pryor. I don't have the numbers in front of me, but 
do you have a number on the----
    Secretary LaHood. The budget adds 119 new staff----
    Senator Pryor. That's what I was going to ask.
    Secretary LaHood [continuing]. In the vehicle safety area.
    Senator Pryor. Okay.
    Secretary LaHood. It's 119.
    Senator Pryor. Okay, all right. I'd like to look at that in 
more detail.
    Secretary LaHood. Sure.
    Senator Pryor. And I'll work with----
    Secretary LaHood. Yes. I appreciate your interest in our 
safety organization. The one thing that the NASA study proved 
is that we do have very good people, that we do pay attention 
to safety, and we did get it right when it came to Toyota.

                             SAFETY GRANTS

    Senator Pryor. Right. I know you spent a lot of time with 
it, and showed a lot of determination to get it right.
    Let me ask about your safety grant programs. I understand 
that you're discontinuing the $120-million-per-year section 406 
Seatbelt Performance Safety Grant Program. And I guess I'm 
wondering why you're----
    Secretary LaHood. Yes, let me ask Chris Bertram----
    Senator Pryor. Yes.
    Secretary LaHood [continuing]. Just to address that, if you 
don't mind.
    Mr. Bertram. Sir, that was a program created in the last 
highway reauthorization, and the point of the program was to 
create incentives for States to change their laws. It was 
always intended to be a temporary program, and a number of 
States have changed their laws. It wasn't intended to be there 
permanently, so we've taken that money and incorporated it into 
other grant programs.
    Senator Pryor. Okay. Other safety type programs?
    Mr. Bertram. Yes, right.

                         CROSS-BORDER TRUCKING

    Senator Pryor. Okay. I don't want to shortchange safety. I 
know that we need to trim our budgets, and everybody agrees 
that we're spending too much, but highway safety and 
transportation safety is very critical.
    Let me ask another question--and last time we saw each 
other, I asked this question about the cross-border trucking 
issue. And you made a very emphatic statement that they would 
include electronic on-board----
    Secretary LaHood. Yes, sir.
    Senator Pryor [continuing]. Recorders (EOBRs).
    Secretary LaHood. Yes, sir. Those will be included on every 
truck. We need to have a metric to make sure we know how many 
hours are driven, and that they're complying with the hours 
that are in the agreement that we signed with Mexico.
    Senator Pryor. Do you know if we're paying for those, or--
--
    Secretary LaHood. We're paying for those.
    Senator Pryor. Why are we paying for those and not the 
Mexican trucking companies?
    Secretary LaHood. In the negotiations, it became clear 
that, if we were going to require these EOBRs, which--we 
absolutely had to require them--I came up here and met with 
more than 25 Senators when the program was suspended, and one 
of the things that was made very clear to me was that we have 
to know that safety metrics are in place, ones that will 
measure the kind of safety that we want. We felt that EOBRs 
were one of the top things that we had to do. It'll be in our 
budget. In the negotiations, we made it clear, trucks coming 
from Mexico have to use EOBRs. Mexico acceded to that request. 
That's the reason we're paying for them.
    Senator Pryor. I would like to reiterate something that you 
and I said in our last setting--and this is really more for the 
subcommittee's benefit--as we do this pilot project, I'm very 
concerned about border corruption down along the United States-
Mexican border. And we've seen this. Senator Collins, on her 
Committee, she's seen this through the Customs and Border 
Patrol. And I hope that you will build in the safeguards and 
protection to, as much as humanly possible, prevent the 
corruption of your folks down along the border, because they're 
having problems in other areas.
    Secretary LaHood. We will certainly do that. I have been to 
the border; I've talked to our people down there. The one thing 
that I was so stunned by is the lack of good facilities that 
they have to work in, the lack of facilities that they have 
when they have to inspect trucks in the 120-degree weather that 
exists down there in the summertime. We've made a commitment to 
them to try and improve the facilities, and we need a 
commitment from them that they will do everything by the book, 
according to the law. We're going to pay attention to that.
    Senator Pryor. Thank you.
    Senator Murray. Senator Coats.

                    FISCAL YEAR 2012 BUDGET REQUEST

    Senator Coats. Thank you, Madam Chairman.
    Mr. Secretary, welcome. And----
    Secretary LaHood. Thank you.
    Senator Coats [continuing]. It's good to see a good former 
colleague and----
    Secretary LaHood. Yes, sir.
    Senator Coats [continuing]. Midwestern bred-and-born-and-
raised Secretary here to--and I appreciate your straight talk--
--
    Secretary LaHood. Thank you.
    Senator Coats [continuing]. Calling it for what it is.
    We served together in the House. You know how the Congress 
operates. You're well aware of our current fiscal situation. 
The reality is that, probably, we're not going to get to the 
numbers the administration has proposed. And so, I guess the 
question is, does the Department--have you looked at the 
possibility of a plan B, in terms of how you would prioritize 
the things that are put together in the President's budget?
    And I would suggest a couple of points here in that regard. 
We all know that we're focusing exclusively on about 15 percent 
of the total budget. As result of that, the discretionary 
spending is getting an inordinate amount of focus and 
attention, and will be subject to a disproportionate share, 
when you look at the whole budget, of the cuts that are taking 
place.
    Now, a number of people, including me and others, have been 
increasingly calling for getting the whole pie on the table so 
that we look at mandatory spending, which, as you know, is two-
thirds of the budget. I'm not asking you to answer this 
particular question. But, if you have the opportunity to 
discuss this at Cabinet level or with the President, we can't 
accomplish this without the President's leadership. There are 
an increasing number of Democrats and Republicans that are 
basically saying, publicly, ``Look, we can't solve our deficit 
problem if we don't look at the whole picture.'' And 
discretionary spending is just simply going to dry up and go 
away.
    You've listed some high priorities here that we all have--
crumbling roads and bridges. We know this infrastructure, 
particularly in the East and the Midwest, is old and needs a 
lot of repair. So, I'm hoping, for one, that we're able to look 
at the larger portion of our spending and take some of the 
pressure off some of the necessary discretionary spending.
    So in that regard, as I'm looking at the building for the 
future, you list three specific areas: high-speed rail, 
America's roads and bridges, and affordable transit operations 
and options. Could you characterize how you might prioritize 
those three, should you get a mark that's significantly below 
what the budget calls for?
    Secretary LaHood. You know, Senator, that DOT has a long, 
long history of working with States on building roads and 
bridges. That's what we know how to do. That's why we have a 
state-of-the-art interstate system, thanks to the good people 
out in the country who know how to build roads, and to our 
partners in the States who have really been good partners with 
us in providing the match money and making sure that the 
contractors are doing what they're supposed to do. Roads and 
bridges are very important.
    Transit is very important. Look at Washington, DC. If we 
didn't have the great Washington Metropolitan Area Transit 
Authority system that we have here, the Metro system, nobody 
would ever be able to get anywhere. This place would be like a 
parking lot, and most people think it's a parking lot now.
    So, transit is very important. And highways and bridges are 
very important.
    But, I want to say this: If we want to do what our 
predecessors did for us, in thinking about the interstate 
system, then we need to think about improving our 
infrastructure. I have nine grandchildren, and I have four 
grown children. Four of my grandchildren actually live in 
Indianapolis, Senator. We need to think about the next 
generation of transportation, and that's high-speed rail. If we 
want to get more cars off the road, if we want to be able to do 
what they've done in Europe and Asia by providing people with 
good rail transportation, then we need to think about high-
speed rail. High-speed rail is a priority for this 
administration. It's the President's signature transportation 
program, because it's about the next generation of 
transportation, the way that our predecessors thought about the 
next generation, and it is why we have an interstate system.
    We're going to be able to deal with the deficits and the 
debt, and also have a good, strong transportation program of 
roads, highways, bridges, transit, and high-speed rail.
    Senator Coats. Yes, I'm----
    Secretary LaHood. Those are our priorities.
    Senator Coats. I would suggest that your statement, ``We're 
going to be able to deal with the deficits and the debt'' and 
the need for infrastructure and high-speed rail, and all this--
it seems to me there's a priority there. We're not going to be 
able to do No. 2 unless we can do No. 1; No. 1 is facing us 
right now. And the budget realities are that we just simply 
can't do both at the same time. And I think every Department 
is----essentially--every agency that has been before us so far, 
and probably all those still to come--are going to say this is 
the top priority.
    I, just yesterday, dealt with Homeland Security. It's 
pretty hard--they're all making their case. And we're doing it 
at a time when the limitations on our going further into 
deficit and further into debt have put us up against the wall. 
That's why I suggested looking at the whole pie, including the 
mandatory spending, as a way of dealing with No. 1, but also 
understanding that, at the end of the day, given the realities 
of the election in November, the makeup of the House of 
Representatives, the change in public attitude toward what we 
must do with our debt, it's going to cause all of us, whatever 
Department we're talking about, to have to make some tough 
decisions and to prioritize some of those. And that really was 
the essence of my question.
    Secretary LaHood. Sure.

                            HIGH-SPEED RAIL

    Senator Coats. The other thing I want to just state here, I 
guess, for the record--I'm not asking for a response on this--
when the President said, ``If they build it, they will come''--
well, you know, we allocate a portion of this money to--the 
problem with building it, and even when it goes to high-speed 
rail, the political system kind of rears its ugly head, and 
every State and every locality and every Member representing 
those States and localities says, ``I've got to get my fair 
share.'' High-speed rail makes sense in some very dense 
corridor areas. It doesn't make sense in the middle of America. 
High-speed rail between Indianapolis and Fort Wayne would be a 
waste of money, because you can get in the car and drive there 
in 2 hours. The road is not crowded. High-speed rail on Senator 
Collins' I-95 between--two towns I'm not aware of, but she's 
not aware of a lot of towns in Indiana--Hampden, and what is 
the other one?----
    Senator Collins. Houlton.
    Senator Coats [continuing]. Houlton--doesn't make any 
sense. But as you know, politicians like to divide up the pie. 
They don't want New Jersey and New York to get all of it, 
because they're dense, and Indiana and Illinois not get its 
fair share. And some of those may make financial sense, and 
some not make financial sense.
    The same with bike trails. I drive every day from Virginia 
into the Capitol here, and there are bike trails along the way. 
If I see one biker on those trails on my 30- to 45-minute trip 
in here, or on the way home, I'm lucky. I see a few messengers 
on the trails here, but DC closes down one of the lanes, which 
clogs up Pennsylvania Avenue. Once in a while, you'll see a 
messenger on one of those trails. But, no one would take their 
life in their hands, No. 1; and No. 2, some of these things 
just don't make sense. And particularly at a time of decreasing 
funds available, let's make sure we prioritize the reality of 
how people conduct their transportation.
    So, that's my little spiel. You don't need to respond to 
that. But I appreciate the opportunity to at least try to be as 
straightforward with what I think as you have been. And I 
appreciate your service----
    Secretary LaHood. Thank you.
    Senator Coats [continuing]. To the country.
    Senator Murray. Thank you.
    Senator Blunt.

                           PREPARED STATEMENT

    Senator Blunt. Thank you, Madam Chairman. I do have a 
statement for the record. I probably should have said that 
earlier. And I'll submit that for the record.
    [The statement follows:]
                Prepared Statement of Senator Roy Blunt
    Thank you Chairman Murray and Ranking Member Collins for holding 
this hearing today. This hearing is a great opportunity to not only 
examine the Department of Transportation (DOT) investment needs 
throughout our system but also to develop a proper transportation 
investment structure that fosters economic development and produces the 
greatest return on all taxpayer dollars.
    Additionally, I would like to thank Secretary LaHood. Your hard 
work on the budget is greatly appreciated. I look forward to working 
with you now and in the future to address our country's infrastructure 
needs.
    In Missouri and across the country, there is a growing concern with 
the capacity of the transportation system. We are beginning to bust at 
the seams, our vehicle miles traveled remain high, congestion rates at 
our airport and on our rails are up. Congestion is a real problem and 
it is taking an economic toll at a time when we simply cannot afford 
more burdens on our system.
    Moving forward, we will look to invest in good roads, but we cannot 
rely on roads alone. We must begin to look toward rail and river 
transport as an efficient way to move goods and ease choke points. We 
must start to think in a comprehensive manner that stresses the 
flexibility rather than rigidity of several separate ones.
    One of my major concerns is the President's investment of $53 
billion over the next 6 years in high-speed rail. This call comes at a 
time when our current infrastructure is crumbling around us. It is easy 
to get caught up in the idea of high-speed rail, but the facts make 
high-speed rail difficult to swallow.
    High-speed rail cost estimates are skyrocketing, the estimated cost 
of the California line jumped nearly 25 percent in 1 year. State and 
local governments are worried about the cost burdens of operating 
expenses and the inevitable budget overruns. Making such a large 
investment at a time when we face a very difficult fiscal situation 
especially when the benefits are still in question and DOT still hasn't 
produced a national rail plan just doesn't make much sense.
    The President's DOT budget also takes a Washington knows best 
mentality. With the increase funding for programs like the National 
Infrastructure Bank (NIB), the livability program, and grant programs 
similar to Transportation Investment Generating Economic Recovery 
(TIGER), the message being sent to our States, counties, and cities is 
that Washington will set the priorities.
    Handing more money and empowering unelected unaccountable 
bureaucrats isn't going to solve our transportation problems. In fact, 
many are still scratching our heads on the process and criteria the DOT 
used in awarding previous TIGER and High-Speed Rail grants.
    Perhaps the most concerning part of this budget is the new 
Transportation Trust Fund. Another idea that sounds great but the math 
just doesn't add up. You are basically taking the current insolvent 
unsustainable Highway Trust Fund and adding the cost of the NIB and the 
expensive, subsidy-laden rail program . . . two programs that will not 
generate any revenue for the trust fund.
  --According to the latest figures from the Congressional Budget 
        Office (CBO), trust fund receipts will amount to $36.8 billion 
        in fiscal year 2012, or about 7 percent less than was spent in 
        fiscal year 2010 ($39.4 billion),
  --During the next 6 years CBO projects tax receipts of $230 billion 
        which now the administration's vision will be responsible for 
        funding rail, transit, highways, and a NIB. Yet the 
        administration is calling for a $550 billion reauthorization 
        bill. Needless to say something is missing.
    There has been a lot talk about how this DOT budget is a bold 
vision. But bold visions are the easy part. Our country's 
infrastructure is in need of a bold detailed plan. We have difficult 
decisions before us, but understanding both the challenges ahead and 
establishing a clear path forward can make those decisions more 
informed and more effective.
    Again, I thank the chair, ranking member, and the Secretary for 
their hard work. I look forward to hearing your perspectives and 
working together to move us forward in solving our economic and 
infrastructure needs.

                        HIGH-SPEED RAIL FUNDING

    Senator Blunt. Mr. Secretary, on the new Transportation 
Trust Fund--I'm going to ask a couple questions about that--I 
think one of the things that the Federal Government has done 
over the last 60 years that has been the least complained about 
and most supported has been HTF, because people really did 
believe people using the system were paying for the system. And 
the idea of expanding that fund creates some concern to me. I 
mean, currently, rail is funded by the general transportation 
appropriations. Will adding the rail program to the new trust 
fund erode the protection that the drivers on highways and 
people that buy gasoline now think they have in that system? 
And what's your view of that?
    Secretary LaHood. We're just getting started on high-speed 
rail. The initial downpayment, more than $10 billion, which 
we've put out around the country--$8 billion, was included in 
the stimulus bill, and another $2.5 billion was provided by 
people around here, on the Appropriations Committee, because 
they see the value of high-speed rail. We need to develop a----
    Senator Blunt. Where did you say the first $8 billion came 
from?
    Secretary LaHood. In the stimulus bill. We got $48 billion.
    Senator Blunt. Oh, right, right.
    Secretary LaHood. Eight billion dollars of that was high-
speed rail, and the other money came through the appropriation 
process for high-speed rail. We've put that money out, and 
we've had very few people turn that money down. There's a lot--
--
    Senator Blunt. What will you do with the money that has 
been turned down, like the Florida money and the----
    Secretary LaHood. We're going to reallocate it.
    Senator Blunt. To other States.
    Secretary LaHood. Absolutely. Senator, there is a line 
outside of my door, of Governors, Senators, Congressmen, that 
have either written me letters or called me. There's no 
shortage of interest for the $2.3 billion that we're going to 
reallocate from Florida. There's a lot of enthusiasm for high-
speed rail in America. We've allocated somewhere in the 
neighborhood of 33 different projects in the country, our $10.5 
billion. And I met with six Senators yesterday from the 
Northeast that all want the reallocated Florida money.
    Senator Blunt. Under your plan, will the money for high-
speed rail come from the newly named HTF?
    Secretary LaHood. Yes.
    Senator Blunt. It will. Okay.
    The CBO estimate, I think, of income, over the next 6 
years, for your purposes, is $230 billion. The reauthorization 
bill asks for $556 billion.
    Secretary LaHood. Right.
    Senator Blunt. Tell me how that works, how do you take $230 
billion of income and do $556 billion of authorized----
    Secretary LaHood. We need to work with the Congress on 
that, Senator. If transportation is a priority, if people see 
transportation as a jobs bill, if they look at our budget as a 
jobs budget, then we're going to have to sit with the Congress 
and figure out how to pay for it. We believe that you can do a 
lot of things, and there are a lot of creative ways to 
accomplish our request. But we want to work with the Congress 
on this.
    Senator Blunt. On coming up with more funding?
    Secretary LaHood. On coming up with $550 billion, if you 
all like our budget.
    Senator Blunt. That's very straightforward. And we'll look 
at it and see if there's a way to bridge that tiny gap between 
$230 billion and $556 billion.
    And I yield back my time, Madam Chairman.

                        REAUTHORIZATION PROPOSAL

    Senator Murray. Thank you, Senator Blunt. Let me follow up 
on that.
    I mean, I think we all know we need to invest in our 
infrastructure, but we've got to find a way to pay for them. I 
understand you do not want to increase gas taxes in order to 
pay for your reauthorization proposal, but I think it really is 
important to understand the size of the problem, and I 
wondered, if you had done an estimate of how much we would have 
to increase gas taxes, for example, even though I know you 
oppose it, in order to pay for the 6-year reauthorization. Do 
we know what that number is?
    Secretary LaHood. We are not in favor of raising the gas 
tax.
    Senator Murray. I understand that. I'm just asking: If that 
was how we had to do it, what would it mean? I'm just trying to 
understand the problem.
    Secretary LaHood. How much an increase would be?
    Senator Murray. Yes.
    Secretary LaHood. I haven't calculated that, Madam Chair.
    Senator Murray. Okay. Another alternative that we've been 
hearing about is a tax on vehicle miles traveled (VMT). The 
State of Oregon has done a pilot on that. I know that you 
oppose that, as well. So tell us, what are the other revenue 
options that you do see to fill that small gap?
    Secretary LaHood. Madam Chair, we want to work with the 
Congress on finding the path forward.
     If I can just say this generally--this is about my own 
experience. I was elected in 1994. I served on the 
Transportation Committee for 6 years. When I came to the 
Congress, there was a deficit, and throughout the period that I 
served, we overcame the deficit and were still able to do a lot 
of creative things. When I was on the Transportation Committee, 
we passed two bills with more than 380 votes in the House and 
more than 80 votes in the Senate. Transportation has always 
been bipartisan.
    This goes to my point that I was trying to make earlier. We 
all can work on reducing the deficit, which is what the 
President wants to do and you all want to do, but we can also 
have transportation priorities. We did it during the 14 years 
that I served in the Congress on the Transportation and 
Appropriation Committee. It can be done. These things are not 
impossible to do. And I think----
    Senator Murray. I would agree with you, but I think----
    Secretary LaHood [continuing]. History has shown that we've 
done it. Other Congresses have done it.
    Senator Murray. I agree with you. But I think we all need 
to be honest, that there has to be a way to pay for the----
    Secretary LaHood. I agree with that.
    Senator Murray [continuing]. Project. We can't keep saying 
that we can cut deficits and these projects will happen. We 
have to say how we're going to--we either have the budget we 
have and we have fewer projects and less infrastructure, or we 
say, ``This is what we believe the Nation needs,'' and how 
we're going to pay for it. And I love how everybody says, 
``There's another idea.'' I want to see what those other ideas 
are. At some point, we've got to come to grips with that. And--
--
    Secretary LaHood. We're ready to sit down and work with 
you.
    Senator Murray. As long as it's not gas tax or vehicle 
miles traveled.
    Secretary LaHood. That's correct.
    Senator Murray. So, I was just asking, what are the other 
options, if those are off the table?
    Secretary LaHood. We'll be happy to visit with you about 
that.

                        ``UP-FRONT'' $50 BILLION

    Senator Murray. Okay. Let's talk about your budget request. 
It did include some dramatic increases for DOT. And part of 
that increase was a $50 billion one-time investment to boost 
the Nation's economy. There, as you know, is a lot of 
resistance to any idea of further so-called stimulus spending. 
Setting aside the additional $50 billion, the President's 
budget does include some modest increases for highways and 
transits. But, there are real cuts to rail and aviation 
programs, in comparison to the levels that were enacted in 
2010. For example, airport grants being cut by $1 billion.
    If the Congress cannot agree to the $50 billion in stimulus 
spending, then how should we view these cuts to rail and 
aviation programs?
    Secretary LaHood. Madam Chair, we think the $50 billion 
upfront is a good investment. We don't really consider it an 
additional stimulus. I can give you the project list for the 
record. I mean, there's a long list of projects and areas that 
we would like to address to help really jumpstart our 
opportunity and continue progress that we have made with the 
stimulus. We think that this is a good way to continue the 
progress that we've made and keep things moving.
    [The information follows:]

    The fiscal year 2012 President's budget includes an ``up-front'' 
$50 billion economic boost in transportation to rebuild and modernize 
America's roads, rails, transit, and runways for the long term. 
Investments in transportation lead to a well-functioning, mobile 
economy. Unfortunately, our investment in transportation has been 
lagging with what we need to keep our economy moving, and compete with 
other countries. Congested roads and airports result in $90 billion in 
productivity and losses and wasted fuel. Perhaps the greatest cost of 
our crumbling infrastructure is the American lives lost every year on 
our highways.
    As described in President Obama's Labor Day speech last year, this 
$50 billion ``up-front'' economic boost will help to re-build America. 
These resources will be targeted toward projects that will quickly 
create American jobs here at home, while improving our transportation 
infrastructure for the next generation. The President envisions this 
up-front investment as the leading edge of the longer-term 
reauthorization plan. Typically surface transportation reauthorizations 
gradually increase funding over the life of the bill. This frontloaded 
plan is designed to give States and localities the confidence they need 
to be decisive about their investment plans and concentrate the impact 
of increased investment in the early years of the reauthorization.
    The ``up-front'' $50 billion economic boost will be for airport, 
highway, transit, and rail programs and distributed as shown below:
  --$25 Billion for Critical Highway Infrastructure.--This funding will 
        help fund critical highway and bridge improvements.
  --$450 Million for Transportation Infrastructure Finance and 
        Innovation (TIFIA).--This funding will help meet the growing 
        demand for highway credit assistance to States.
  --$7.5 Billion for Transit State of Good Repair.--This funding will 
        help pay for capital asset renewal and replacement at local bus 
        and rail transit systems nationwide with a focus on the oldest 
        and largest systems with the greatest need.
  --$3 Billion for Urban and Rural Formula.--This funding will support 
        more than 1,300 local transit agencies nationwide with capital 
        assistance, including routine maintenance, and limited 
        operating assistance for certain small urban and rural systems.
  --$1 Billion for New Starts.--This funding is for investment in new 
        transit options to reduce congestion, decrease travel times, 
        improve mobility, reduce energy consumption, and create more 
        livable communities.
  --$3 Billion for Rail Network Development.--This funding will help 
        develop our high-speed rail network, with the ultimate goal to 
        connect 80 percent of Americans to an efficient and viable 
        passenger rail system over 25 years.
  --$2.5 Billion for Rail System Preservation and Renewal.--This 
        funding will allow Amtrak to make critical investments in its 
        aging rail car fleet and bring all Amtrak stations into 
        compliance with the Americans with Disabilities Act.
  --$3.1 Billion for Grants-in-Aid for Airports.--This funding would be 
        available for runway construction and other airport 
        improvements such as Runway Safety Area improvement projects 
        and noise mitigation projects.
  --$250 Million for the Federal Aviation Administration's (FAA) 
        Facilities and Equipment.--$200 million of this funding will be 
        available for NextGen for applied research, advance 
        development, and implementation of engineering solutions for 
        NextGen technologies, applications and procedures; and $50 
        million will be available to make near-term improvements in 
        FAA's infrastructure, including upgrading power systems and air 
        traffic control centers and towers.
  --$2.2 Billion for Cross-Border Transportation.--This funding will 
        significantly improve the condition of land port of entry 
        facilities that link directly to the transportation 
        infrastructure at border crossing locations.
  --$2 Billion for a National Infrastructure Investments.--This grant 
        program, similar to the TIGER program, will provide grants to 
        State and local governments and transit agencies for capital 
        investments in the Nation's surface transportation 
        infrastructure, including roads and highways, public 
        transportation facilities, freight and passenger rail, and port 
        infrastructure.

                            HIGH-SPEED RAIL

    Senator Murray. Okay. I said, in my opening statement, I 
support the development of high-speed rail, and the benefits 
for both the movement of passengers and freight. I think it's 
very important. However, I also expect that an initiative that 
has received this much funding and support has to demonstrate 
results. That is exactly why this subcommittee did include 
language last year in our appropriations bill requiring a 
national rail plan. The Department was required to submit that 
to us by September 15. We still haven't gotten it. And I think 
it's hurting some of the program's credibility, and 
strengthening the position of those who want to eliminate it. 
And I wanted to ask if you can tell me the status of that 
national rail plan.
    Secretary LaHood. We are finalizing a plan that will 
connect 80 percent of the country over the next 25 years, at a 
cost of about $500 billion. We will finalize that and make sure 
that you all see it.
    Senator Murray. Any estimate of time on those yet?
    Senator Collins. I think very soon.
    Senator Murray. Okay. That's right along there with paying 
for the authorization, all right.
    Senator Murray. Thank you, Mr. Secretary.
    Senator Collins.

                          BUILD AMERICA BONDS

    Senator Collins. Thank you, Madam Chairman.
    I want to pick up on Senator Murray's questions about how 
we would fund the reauthorization. An idea that has been around 
for a few years, that was initially proposed by Senator Jim 
Talent and now is going to be introduced by Senator Ron Wyden, 
is to develop a new kind of bond that would be used to finance 
transportation projects.
    Now, as with the gas tax, there are downsides to the bond 
proposal, because it increases our indebtedness at a time when 
the debt is already too high. I believe, however, that Senator 
Wyden is really looking at some sort of revenue bond, where 
there would be funding that could help offset the cost. I don't 
know whether he's talking about tolls or whether there are 
other--he, at one point, talked about everyone's favorite 
offset, which is customs user fees.
    Have you taken a look at the bond proposal? And, if so, 
what do you think of it? I, for one, have not decided----
    Secretary LaHood. Are you referring to the Build America 
Bond, Senator?
    Senator Collins. Yes. The Build----
    Secretary LaHood. Yes. We think that's a very good program. 
I don't know if it was a pilot or not, but the program has 
ended. A total of $116 billion in Build America Bonds were 
issued. The President's budget has requested that the Build 
America Bonds be made permanent. We think it's a good way to 
fund significant projects. It's been a good program.
    Senator Collins. Thank you. I should be more precise and 
say it's a variation of what the administration put in its 
budget.
    But, I will get to your staff the language of the proposal 
of Senator Wyden. And I, for one, would be very interested in 
your analysis of it.
    Secretary LaHood. This program is bipartisan. Senator Thune 
was a cosponsor of this bill and this program, and he supports 
it.

                                NEXTGEN

    Senator Collins. Thank you.
    I want to turn to another issue, and that is the problems 
that the Government Accountability Office (GAO) has found with 
NextGen for managing air traffic. GAO has been critical of the 
FAA's management of the program, and has pointed to budget and 
schedule delays that are affecting the implementation of 
NextGen systems. What is the status of this program? And, more 
specifically, what is FAA doing to respond to the criticisms 
that GAO has levied?
    Secretary LaHood. NextGen is really about safety. It's 
about saving jet fuel. It's about guiding planes, safer and 
more directly, in and out of airports. It would require putting 
the technology in every terminal radar approach control in the 
country, and in every airplane in the country, also. We're 
making progress. Part of it has been implemented in the Gulf of 
Mexico and a couple of other places. We're going to continue 
our investments in this. The President is requesting $1.2 
billion for NextGen, which is an increase of $369 million. 
We're committed to this.
    With respect to the GAO report, what I would prefer to do 
is maybe answer that for the record, or come up and brief you 
all on that. I haven't looked at that lately.
    We are committed to next-generation technology. We have to 
do this, for air safety, for saving jet fuel, and just because 
of the Northeast Corridor congestion and congestion at other 
airports. This will solve a lot of problems.
    [The information follows:]

    The Federal Aviation Administration (FAA) takes the Government 
Accountability Office's (GAO) concerns seriously and we continue to 
monitor the progress of the Next Generation Air Transportation System 
(NextGen). In response to the GAO report FAA has developed a draft set 
of NextGen outcome-based metrics through a cross-agency team, initiated 
joint FAA industry working group to confer and provide recommendations 
on NextGen performance outcomes, and established a NextGen 
Implementation Performance and Reporting Office to provide transparency 
on NextGen performance improvements via a dashboard. Official metric 
recommendations are expected from industry at the September 29, 2011 
NextGen Advisory Council meeting. FAA will be briefing your staff 
shortly on these activities in response to the GAO report.

    Senator Collins. Thank you.
    Senator Murray. Senator Blunt.

                            HIGH-SPEED RAIL

    Senator Blunt. Mr. Secretary, on the rail expansion, does 
your Department have any ideas on how we might encourage the 
private-sector----
    Secretary LaHood. Yes, sir.
    Senator Blunt [continuing]. Extension of the rails? And 
what would some of those be?
    Secretary LaHood. There are about 8 or 10 foreign companies 
in America, right now, partnering with the States to build the 
train sets, to employ Americans, to take shuttered plants 
around the country and turn them into train manufacturing 
facilities. They're going to invest their money in American 
workers and build the train sets.
    They have the expertise. The truth is we don't have very 
many experts in building train sets and infrastructure for 
high-speed rail, but companies from France, Germany, Japan, and 
China are in America right now, partnering and looking for 
opportunities to open shop, hire American workers, and to begin 
to build the train sets.
    Senator Blunt. What about infrastructure for traditional 
rail?
    Secretary LaHood. If you look at the TIGER program, which 
was $1.5 billion that was provided in the stimulus, one-half of 
that money went to the class I freight rail systems so we could 
pay them to fix up their tracks, so then passenger rail could 
use those tracks to go higher speeds. We've had great partners 
with the class I freight rails.
    Amtrak is a huge player in this, also. Amtrak will provide 
the service on many of these corridors. We're making 
investments with Amtrak in fixing up their tracks. The line 
from Chicago to St. Louis is a classic example. The money that 
went to Illinois and Missouri is being used to fix up the 
tracks to get these trains to higher speeds. That's the service 
being provided by Amtrak.
    Senator Blunt. Any discussion of tax credits or other 
things that would encourage the railroad companies to build 
additional track, additional infrastructure?
    Secretary LaHood. We haven't really talked in terms of tax 
credits, but more in terms of partnering with these companies 
that are here and trying to leverage the private dollars that 
they want to invest.
    Senator Blunt. Okay. Thank you, Madam Chairman.
    Senator Murray. Thank you.
    I just have two more questions.
    Secretary LaHood. Okay.

                             TITLE XI LOANS

    Senator Murray. I wanted to ask you about the title XI loan 
guarantees for ship construction. That processing has now taken 
about 270 days. And as of last week, all the applications 
pending exceed that deadline by anywhere from 100 to 450 days. 
While some of these delays may be the fault of the applicants 
themselves, some are the Department, as well. The average time 
it takes to execute a contract to hire an independent external 
review of an application, that the applicant pays for, is 165 
days. This shouldn't take more than 60 days. It really is 
unacceptable. Can I get you to look at this problem----
    Secretary LaHood. Absolutely.
    Senator Murray [continuing]. And get back to me about how 
we can----
    Secretary LaHood. Absolutely. I'll look at it.
    Senator Murray. Okay.
    Secretary LaHood. And I'll report back.
    [The information follows:]

    The Maritime Administration (MARAD) is changing the process it 
currently uses to award external review contracts. This change should 
be fully implemented by the end of this year. The current process 
requires MARAD to procure independent financial advisors through a 
Federal Highway Administration solicitation. The new process will 
internalize the procurement within MARAD and reduce the number of steps 
required to award an external review contract eliminating many of the 
delays recently experienced.

                              FUEL PRICES

    Senator Murray. I appreciate that.
    I also wanted to just ask you about fuel prices. I know you 
follow this so you can make forecasts about air travel and HTF 
and all those things. I am concerned about the impact--today 
we're hearing a lot about it--I wanted to ask you where you see 
prices going, both near- and long-term, and what is the 
Department's role, here?
    Secretary LaHood. We play a role, as a member of the 
President's Cabinet. We've already played a significant role 
over the last 2 years by working with the Environmental 
Protection Agency (EPA) to develop higher corporate average 
fuel economy (CAFE) standards, higher gasoline standards. By 
2016, the standard will be 35 miles per gallon. Our people are 
working very hard with the EPA, beyond 2017, for another 
standard. We're working with a lot of different folks on that. 
That's where we can play a significant role on CAFE standards.
    We're also working, as a part of the administration, with 
car companies on the electrification of cars, which I think is 
something that's obviously very significant. We're a part of a 
team at the White House that, like you and many others, is very 
concerned about high gasoline prices and the impact it'll have 
on the economy. The impact that it has on average, ordinary 
citizens--many of whom are out of work and can ill-afford a 
gallon of gasoline, let alone at $4 or $4.50 a gallon.
    I can tell you, the administration is focusing like a laser 
beam. I was at the White House yesterday with some of my 
Cabinet colleagues, talking about this, trying to figure out 
what the best way forward is. The administration will be 
stepping up on this and providing the leadership.
    Senator Murray. Good. I really appreciate that. It is 
deeply concerning to all of us--families, businesses. And as we 
head into the spring and summer months, it's going to----
    Secretary LaHood. Absolutely.
    Senator Murray [continuing]. Have an impact on our economy, 
as we're just starting to get out of this.
    Secretary LaHood. Absolutely. Yes. I know full well that in 
Illinois, particularly Chicago, when the temperatures start to 
rise, then there has to be a different blend. In the past, that 
has only increased the cost of----
    Senator Murray. Yes.
    Secretary LaHood [continuing]. A gallon of gasoline.
    So, all of these things are being weighed very heavily and 
discussed around the clock at the White House.
    Senator Murray. Okay. I very much appreciate that.

                     ADDITIONAL COMMITTEE QUESTIONS

    With that, I remind all of my colleagues that we will be 
leaving the hearing record open for an additional week for any 
additional questions.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
              Questions Submitted by Senator Patty Murray
             commercial vehicle information system network
    Question. This past summer the subcommittee was notified of 
potential Anti-Deficiency Act violations in the Federal Motor Carrier 
Safety Administration's (FMCSA) management of the Commercial Vehicle 
Information Systems Network (CVISN) program. This subcommittee asked 
the Government Accountability Office (GAO) to conduct an audit, and 
they found compliance issues dating as far back as 1998. While these 
problems developed long before your tenure, the subcommittee has been 
waiting for the Department of Transportation's (DOT) audit findings 
since last October. Mr. Secretary, when will you be able to provide 
your findings and conclusions to the subcommittee? What corrective 
actions has the Department taken and what issues still need to be 
addressed?
    Answer. The Department has determined that FMCSA violated the Anti-
Deficiency Act when it obligated funds in excess of the statutory 
limitations as defined by section 4126 of the Safe, Accountable, 
Flexible, Efficient Transportation Equity Act: A Legacy for Users. The 
Department has concurred on the May 5, 2011, GAO audit, which describes 
FMCSA's Anti-Deficiency Act violations. The Department is working 
closely with FMCSA to complete its report to the Congress and GAO on 
these violations. We expect the report to be completed shortly.
    FMCSA has undertaken the following corrective actions. First, FMCSA 
immediately realigned the responsibility for administrative CVISN grant 
functions from the agency's Office of Analysis, Research and 
Technology, which oversees agency research and data analysis, to the 
State Programs Division, Office of Safety Programs, under the Associate 
Administrator for Enforcement and Program Delivery, whose primary 
functions involve State and local grants management. As a result, as of 
June 2010, administrative responsibility for all of the agency's 11 
grants programs resides within the Office of Safety Programs. This 
realignment has improved coordination across all agency grant programs 
and significantly improved consistency and compliance with the agency's 
grant management policies and procedures. The technical programmatic 
oversight of the CVISN grant program will remain with the Technology 
Division in the Office of Analysis, Research and Technology, where the 
technical program expertise still resides.
    Second, FMCSA is implementing Grant Solutions, a Governmentwide 
grants management system and support service. Grant Solutions 
incorporates all grant life cycle processes both for awarding-agencies 
and recipients, and provides postaward reporting mechanisms. Grant 
Solutions is used widely across the Government, including within the 
various DOT modes. The use of Grant Solutions allowed FMCSA to formally 
develop grant process workflows, standardize grant agreements and 
amendments, and allow for more efficient financial tracking.
    Third, FMCSA has revised its grants manual which sets forth policy 
on all grant administration activities and provides FMCSA with a 
general and uniform set of minimum procedures for soliciting, 
reviewing, awarding, managing, and closing out grants. This manual 
provides direction to ensure the consistent implementation of 
legislation, regulations, Office of Management and Budget regulations 
and circulars, Executive orders, and departmental and FMCSA policies 
and procedures related to financial assistance. FMCSA is also 
continuing to develop individual training plans for each position that 
has a role and responsibility in the grant management life cycle.
                 transportation of hazardous materials
    Question. In 2010, the inspector general conducted an investigation 
into the Pipeline and Hazardous Materials Safety Agency (PHMSA) Special 
Permits and Approvals program. The inspector general found such 
troubling management issues that he was compelled to issue not one, but 
two special management advisories. The agency is now granting special 
permits to an actual company rather than a trade association, as well 
as conducting the required safety fitness evaluations. These actions, 
in addition to growth in the industry, have caused a quadrupling of 
applications from 13,000 in an entire year to 13,000 in just one-
quarter. How have you addressed the inspector general recommendations?
    Answer. On February 4, 2011, PHMSA closed all open inspector 
general recommendations issued to the Office of Hazardous Materials 
Safety Approvals and Permits Division. PHMSA accomplished this by 
developing and executing action plans that included deliverables such 
as:
  --clarifying that special permits and approvals are only granted to 
        companies who are members of associations;
  --improving our data management and stewardship;
  --building analytical capability to better assess risks of hazmat in 
        transportation;
  --investing in training;
  --acquiring tools needed to enhance productivity;
  --reengineering business processes; and
  --modernizing our information system.
    Implementing these process improvements has allowed PHMSA to 
process more than 5,600 explosive approval applications in fiscal year 
2010-2011, which has virtually eliminated the backlog and reduced the 
total applications in queue from 2,000 in January 2010 to 300 as of 
September 2011.
    Likewise, PHMSA has processed more than 26,000 fireworks approval 
applications in fiscal year 2010 to fiscal year 2011, and reduced the 
backlog from 1,117 in April 2010 to 65 in September 2011. PHMSA 
continues to strive to reduce the backlog of special permits, which is 
due largely to the implementation of a necessary Safety Equivalency 
Evaluation Recovery program, which entailed reviewing existing safety 
justifications for more than 1,350 active special permits. PHMSA 
completed the Safety Equivalency Recovery Plan in September 2011 and 
even though the number of special permit applications received almost 
doubled from 2009 to 2010 and has remained at a high level, the number 
of special permits in queue has been reduced from 2,449 on January 2011 
to 769 on September 2011. Other actions include modernizing our 
information system to streamline application processing and 
incorporating widely used special permits with a proven safety record 
into the Hazardous Materials Regulations.
    Question. How does your budget proposal support the agency's 
ability to effectively manage the safe transportation of hazardous 
materials in this country?
    Answer. PHMSA administers a comprehensive, nationwide program 
designed to protect the public from the risks to life, health, 
property, and the environment inherent in the commercial transportation 
of hazmat by air, rail, vessel, and highway. Hazardous Materials Safety 
achieves its goals through:
  --evaluating hazmat transportation safety risks;
  --developing and enforcing standards for transporting hazmat;
  --providing compliance assistance to hazmat shippers and carriers;
  --offering assistance to State and local emergency responders and law 
        enforcement officials on hazmat transportation issues;
  --investigating hazmat incidents and failures;
  --conducting research; and
  --providing grants to improve emergency response to incidents.
    PHMSA's fiscal year 2012 budget addresses specific program 
enhancements. PHMSA plans to:
  --Improve hazardous material data collection, analysis, and 
        reporting; technical assessments; and research and development 
        to strengthen decisionmaking capabilities when setting domestic 
        and international hazmat transportation safety standards;
  --Enforce the hazmat transportation safety standards and improve 
        enforcement through a training program;
  --Provide safety and compliance assistance to the hazmat safety 
        community; and
  --Enhance the special permit and approvals program and permit the 
        Secretary to collect fees for processing and enforcement of 
        special permits and approvals.
                            unsecured loads
    Question. Washington has been a leader in passing legislation that 
would require secured cargo loads on personal vehicles. What is DOT 
doing, if anything, with regards to raising awareness of the hazards of 
unsecured loads on our highways? Does the Department record and track 
data related to secured loads?
    Answer. While the National Highway Traffic Safety Administration 
collects limited data on the issue of fatalities attributed to falling/
shifting cargo, we have not developed an awareness program for that 
specific issue.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein
              obligation of funds for california projects
    Question. As of today, there is close to $1 billion in funding for 
California projects that has yet to be obligated. This includes three 
Transportation Investment Generating Economic Recovery (TIGER) II 
projects, three Transit Investments for Greenhouse Gas and Energy 
Reduction (TIGGER) II projects, and 26 high-speed and intercity rail 
projects. Some of these were awarded as early as January 2010 and have 
yet to begin construction.
    What is the reason for the delay in obligating the funds for these 
projects?
    Answer.
TIGGER II
    All three of the TIGGER II projects have been obligated and the 
funds have been awarded.
            Foothill Transit--Fast-Charge Electric Transit Bus Project, 
                    Line 291
    The project is for the purchase and deployment of fast charge 
electric buses for revenue service. The $10.1 million grant was awarded 
in August 2011.
            Alameda-Contra Costa Transit District--Sustainable Energy 
                    Supply
    The project is for the development and deployment of fuel cell bus 
technology for revenue service. The $6 million grant was awarded in 
June 2011.
            Mendocino Transit Authority--Solar Canopies
    The project is for the design and construction of a solar cell 
canopy to reduce energy consumption and emissions through the use of 
solar energy. The $470,000 grant was awarded in September 2011.
TIGER II
            Los Angeles County--Crenshaw/LAX Light Rail Project
    The Crenshaw/LAX project is an 8.5-mile light-rail transit line 
with a budget of $1.715 billion (year of expenditure), and TIGER II 
assistance of $20 million to support the subsidy cost of a $545.9 
million TIGER Transportation Infrastructure Finance and Innovation Act 
(TIFIA) loan. As such, the environmental effort for such a project is 
significant and time consuming. The project sponsor, the Los Angeles 
County Metropolitan Transportation Authority (LACMTA) recently 
submitted the administrative Final Environmental Impact Statement for 
Federal Transit Administration review, with a Record of Decision 
expected in the September/October 2011 timeframe.
    Preliminary engineering work is underway and the final design 
effort will begin later this year. Construction will begin in December 
2012, pursuant to the award of design-build contract to be advertised 
in January 2012. The memorandum of understanding for the TIGER II 
funding is expected to be executed in December 2011.
    LACMTA has delayed submission of a TIFIA loan application until the 
environmental milestones are complete. The TIFIA Office expects to 
receive an application from the project sponsor in October 2011. Once 
an application is received, it typically takes 6-9 months to evaluate 
the project's financial feasibility and negotiate a credit agreement. 
The TIFIA loan will not be obligated until the credit agreement is 
ready to execute. At that time, the subsidy cost of the credit facility 
(the TIGER II funds) will be finalized and obligated.
            San Mateo County--Grand Boulevard Initiative: Removing 
                    Barriers to Sustainable Communities
    The San Mateo Planning Project Grant (CA-79-1000) from the TIGER II 
program was awarded March 10, 2011, and executed March 14, 2011.
            East Bay Regional Park District
    The East Bay Regional Park District received $10.2 million under 
the TIGER II program from FHWA for the East Bay Green Transportation 
Initiative. The TIGER II funds are assisting a series of six separate 
project elements. Under phase 1 of the TIGER II Grant Agreement TIGER 
funding is being used to complete the environmental review and 
engineering for two projects. In phase 2, it is anticipated that 
construction will be completed on five of the project elements. 
Currently, FHWA has obligated the entire phase 1 base amount of 
$1,100,000 for costs associated with environmental review and 
preliminary engineering for the Iron Horse Trail and San Francisco Bay 
Trail. Work is progressing on both of these project elements. FHWA 
anticipates making additional obligations during fall 2011 for the 
Alamo Canal Trail ($1.3 million) and possibly the Hercules Intermodal 
Station ($1.8 million). FHWA anticipates obligating the balance of 
TIGER II funds in 2012 as the remaining project elements complete the 
environmental and engineering processes. FHWA is continuing to work 
closely with the East Bay Regional Park District and Caltrans to ensure 
the project remains on track and all parties give the project a high 
level of attention and focus on rapidly advancing the various elements.
            San Bernadino Airport Access Project
    The city of Highland received $10 million under the TIGER II 
program from FHWA for the San Bernardino Airport Access project. The 
purpose of the project is to expand roadway capacity to provide safe, 
direct, and efficient highway access on State route 210 and Del Rosa 
Drive to the new San Bernardino International Airport. None of the 
funds have been obligated yet, because the grantee is working on 
complying with planning and design requirements, as well as completing 
required the National Environmental Policy Act of 1969 (NEPA) analyses. 
FHWA anticipates that the grantee will be ready to obligate a portion 
of the funds for final design work in fall 2011 and the remainder of 
the funds for construction by September 2012. FHWA continues to work 
closely with the city and Caltrans to ensure that the project remains 
on schedule.
High-Speed and Intercity Rail Projects
    As of September 2011, the Federal Railroad Administration (FRA) has 
obligated more than $3.2 billion of the $4.2 billion in high-speed 
intercity passenger rail (HSIPR) funding allocated to California for 
projects throughout the State, including California's High-Speed Rail 
project.
    Most recently, three projects were obligated:
  --$16 million in fiscal year 2010 HSIPR funding to the California 
        High-Speed Rail Authority (CHSRA) that will support safety and 
        scheduling improvements on the heavily traveled San Francisco 
        to San Jose corridor;
  --$1.7 million in American Recovery and Reinvestment Act of 2009 
        (ARRA) funding for Caltrans to construct maintenance of way 
        spurs extending the hours of intercity passenger rail service 
        on Southern California Regional Rail Authority's Orange 
        Subdivision; and
  --$1.5 million in fiscal year 2010 funding for Caltrans to prepare 
        its State Rail Plan.
    We have prioritized obligations with the assistance of our grantees 
in conjunction with their local agencies and are actively working to 
obligate the remaining grant funds to California.
    Question. Is there anything that Senators can do to hasten the 
obligation of these projects in their States?
    Answer. As of September 2011, the FRA has obligated more than $3.27 
billion for 18 projects of the $4.2 billion in High-Speed Intercity 
Passenger Rail (HSIPR) funding allocated to California, including 
California's High-Speed Rail project. FRA will keep the Senator and 
California delegation appraised of progress and address issues needing 
attention when appropriate.
  --Good progress is being made with several recent obligations 
        totaling $179 million, including:
    --$86.4 million in ARRA funding to CHSRA to support the Central 
            Valley project, extending the current 110-mile segment an 
            additional 20 miles to Merced and Bakersfield;
    --$68 million in ARRA funding to Caltrans for new trains servicing 
            intercity routes, which is part of a multi-State 
            procurement between California, Michigan, Iowa, Illinois, 
            Missouri, and Washington State to pool resources and 
            maximize the purchase of next-generation American-made 
            trains; and
    --$24.9 million in fiscal year 2009 HSIPR funding to Caltrans to 
            install positive train control (PTC) between San Onofre and 
            San Diego.
  --Of the 14 remaining projects, most are nearing final obligation. 
        There are:
    --8 preliminary engineering (PE)/NEPA projects for $28.7 million;
    --3 planning projects for $2 million;
    --1 final design/construction project for $4.6 million; and
    --2 large corridor programs for $928.6 million.
The attached chart describes these projects in more detail.


------------------------------------------------------------------------
  California high-speed rail projects             Project status
------------------------------------------------------------------------
PE/NEPA projects:
    Pacific Surfliner: PE/NEPA for       FRA is working with Caltrans to
     Double Track.                        revise language in the
    Raymer-Bernson: PE/NEPA for Double    statements of work. Once these
     Track, Grade Crossings, New          revisions are agreed to and
     Bridges, New Platform.               approved, FRA anticipates
    Pacific Surfliner: PE/NEPA for        immediately obligating
     Double Track, Curve Realignments.    remaining funding.
    Van Nuys Boulevard: PE/NEPA for
     Bridge Widening, New Platform,
     System Improvements.
    Del Mar: PE/NEPA for Second Track,
     Bridge, Signal Improvements.
    Seacliff: PE/NEPA for Track
     Realignment, Siding Extension.
Planning projects:
    Los Angeles-San Luis Obispo
     Corridor Plan.
    Bakersfield-Oakland-Sacramento (San
     Joaquin) Corridor Plan.
    Los Angeles-San Francisco Corridor
     Plan.
PE/NEPA projects:
    San Diego: PE/NEPA for Double Track  Caltrans and San Diego
    Oceanside: PE/NEPA for Bridge         Association of Governments are
     Replacement with Double Track.       resolving issues and making
                                          revisions to their scopes of
                                          work. If these scope issues
                                          delay obligations, FRA will
                                          reach out to Senator Feinstein
                                          and the California
                                          congressional delegation.
Construction project: Capitol Corridor-- Caltrans and Union Pacific are
 Yolo West Cross-  over.                  continuing to work toward
                                          reaching an agreement in the
                                          near term. Should these
                                          negotiations not prove
                                          productive, FRA will reach out
                                          to Senator Feinstein and the
                                          California congressional
                                          delegation.
Central Valley projects:
    Initial Central Valley Construction  As required by law, FRA is
     Project-Extension to Merced          working collaboratively with
     Station and Bakersfield Station.     California to develop a
    Central Valley HSR: Fresno-           business and public investment
     Bakersfield or Merced-Fresno.        case. CHSRA is providing
                                          revised figures for its
                                          updated business plan to the
                                          California legislature in
                                          October, once FRA has received
                                          and incorporated the revised
                                          numbers, the business and
                                          public investment case can be
                                          finalized and reported to the
                                          Congress for the necessary 30
                                          days before moving to
                                          obligation.
------------------------------------------------------------------------

                       california high-speed rail
    Question. I am very grateful for the Department of Transportation's 
(DOT) continued support and investment in California's high-speed rail 
project. As you know, this is a very ambitious project for our State, 
one which has an immense amount of support--but also has several issues 
to resolve in order to reach success.
    Would you be willing to designate a high-level official in your 
personal office to oversee high-speed rail projects?
    Answer. The FRA Administrator and Deputy Administrator have been 
intimately involved in the establishment and implementation as well as 
engaged in the selection, obligation and oversight of FRA's high-speed 
rail (HSR) projects. The DOT Deputy Secretary and his leadership staff 
are also briefed and involved on a regular basis with the high-speed 
rail program. DOT is committed to the awarded projects and will work 
with California to ensure success.
                 positive train control implementation
    Question. In November 2010, DOT announced that seven projects were 
awarded funds from the Rail Safety Technology Grant Program. A majority 
of the funds went to PTC technology development rather than to transit 
agencies to implement these systems.
    Why didn't the Department request any funds for fiscal year 2012?
    Answer. The President's budget for fiscal year 2012 requested $50 
million for railroad safety technology grants within the Network 
Development appropriation and specifically under the program, Capacity 
Building and Transition Assistance. FRA believes this level of funding 
will help identify common issues and solutions that will facilitate the 
national deployment of PTC. The funding will also help resolve critical 
hardware and software issues associated with PTC development, 
implementation, and deployment across multiple railroads, including 
commuter rail providers. These common issues include interoperability 
in a high-speed rail environment, limited shared communications in a 
single high-density infrastructure, security and identity management 
standards, and a rapid and reliable track database verification system.
    Question. Do you believe rail operators are on track to meet the 
deadline of December 31, 2015, without Federal assistance?
    Answer. All railroads subject to the statutory mandate have 
presented plans to FRA for complying with the December 31, 2015, 
deadline. However, these plans provide little or no margin for delays 
due to technical issues that might emerge during deployment. For 
example, FRA has identified emergent issues associated with 
communications and spectrum availability where Federal assistance is 
appropriate. FRA has used Railroad Safety Technology Grant Program 
funding and is working with the Federal Communications Commission to 
aid in resolution of these issues.
    Question. If we are going to subsidize the developers of the 
technology, shouldn't we also support the transit agencies that are 
mandated by the Congress to purchase the technology?
    Answer. The statutory mandate creates a challenge for already 
financially strapped transit agencies. Recognizing this challenge and 
the limited Federal funding available, FRA is devoting its resources to 
resolving development, implementation, and deployment issues that 
confront multiple railroads, including commuter rail providers. This 
focus will provide benefits beyond any single railroad or transit 
agency.
                             goods movement
    Question. More than 40 percent of all containerized goods in the 
United States travel through southern California. Due in part to Goods 
Movement, the Los Angeles basin has suffered from poor air quality and 
massive congestion. Imports and Exports traffic is expected to increase 
in places like California, Washington, Texas, Louisiana, New York, and 
Florida for the foreseeable future.
    Is there a strategy in place to handle increased container traffic 
in the coming years?
    Answer. In the fiscal year 2012 budget, DOT has proposed robust 
investments in transportation infrastructure that would include a major 
focus on freight transportation. This proposal includes a National 
Infrastructure Bank (NIB) that could focus freight-related 
infrastructure investment funding on areas of national significance 
(for example, on investments to facilitate increases in container 
traffic through U.S. ports). By making strategic investments in ports 
and goods movement surface transportation infrastructure, the 
Department believes that we can improve the competitiveness of the U.S. 
economy while minimizing the congestion and adverse environmental 
impacts of any projected increases in container traffic.
    The Department currently has a study underway that will quantify 
the anticipated changes in international and domestic freight flows 
expected to result from the expansion of the Panama Canal (which will 
be completed in 2014). The findings of this study will provide guidance 
in making future investments in freight transportation.
    In the past 2 years, significant portions of the discretionary 
TIGER grant program have been directed to investments in freight 
facilities, including improvements to ports, highways, and railroads 
that handle import and export traffic.
    Question. Do you believe a National Goods Movement Policy is 
necessary given the current congestion and health issues that affect 
many parts of the country?
    Answer. The President's budget proposal for DOT included creation 
of an Office of Freight Policy within the Office of the Secretary, to 
coordinate freight policy across the Department's modal 
administrations. We believe that a coordinated, intermodal freight 
policy will be essential in the future to guide investments in freight 
infrastructure and assure efficient operation of the Nation's 
intermodal freight system.
    As a step toward the goal of a national freight policy, the 
Department is in discussions with the U.S. Army Corps of Engineers to 
develop a process for aligning their dredging program and other 
waterway projects with DOT activities, with the aim of developing a 
coordinated policy for Federal investment in marine transportation.
                      national infrastructure bank
    Question. The mandate of a NIB appears to overlap with the efforts 
of other existing programs, such as State infrastructure banks and 
TIFIA and Railroad Rehabilitation and Improvement Financing (RRIF) loan 
programs. What is the justification for creating a new entity? Why not 
expand existing programs or alter the mandates for programs already in 
existence? Do you see these programs co-existing?
    Answer. The primary objective of the NIB will be to invest in 
infrastructure projects that significantly enhance the economic 
competitiveness of the United States or a region thereof by increasing 
or otherwise improving economic output, productivity, or competitive 
commercial advantage. The NIB will leverage Federal dollars and focus 
on investments of national and regional significance that often fall 
through the cracks in the traditional transportation programs.
    Creating the NIB as a new entity within the Department will 
encourage multi-modal approaches to the transportation infrastructure 
problems currently facing the Nation. A multi-agency Investment Council 
will help guide the investment decisions of the NIB and target critical 
projects that existing funding sources organized by mode can often fail 
to finance. Increasing the economic competitiveness of the Nation is 
such a compelling objective for transportation and this proposed bank 
with its unique ability to invest in the full range of transportation 
infrastructure options--highway, transit, rail, aviation, and port 
facilities--can support solutions that no other program at the 
Department can offer.
    Credit assistance under the TIFIA program would cease within 2 
years of the enactment of legislation to create the NIB. All credit 
instruments of the TIFIA program would be transferred to the NIB within 
3 years. The RRIF program would continue to be administered by FRA. 
RRIF loans would not be transferred to the NIB.
                                 ______
                                 
               Questions Submitted by Senator Mark Pryor
                 maintenance of highway infrastructure
    Question. In Arkansas, we have I-49 and I-69 and other high-
priority corridors that are in need of major upgrades, but the existing 
formula funds are inadequate to make the needed investment while 
continuing to maintain existing infrastructure.
    Is the administration doing enough to invest in future highway and 
interstate corridors?
    Answer. Yes. In his State of the Union address, President Obama 
said that, ``To win the future, we have to out-innovate, out-educate 
and out-build the rest of the world, tapping the creativity and 
imagination of our people.'' Consistent with this policy, the 
President's budget called for a 6-year investment of $336 billion in 
highways, 48 percent higher than the previously authorized level. In 
addition, the President's budget proposed funding of $30 billion over 6 
years for the establishment of a National Infrastructure Bank (NIB) to 
finance projects of national or regional significance. For fiscal year 
2012, the President's budget also proposed funding of $2 billion for 
the continuation of the National Infrastructure Investments program, 
commonly referred to as Transportation Investment Generating Economic 
Recovery (TIGER) grants. The increased funding levels for the Highways 
program, TIGER grants and the creation of the NIB will provide multiple 
opportunities for investment in the arterial highways that connect 
Americans and support commerce.
    Question. How do you propose we build out these future corridors of 
interstates and highways?
    Answer. As described above, the administration supports increased 
investment in critical infrastructure through a 48-percent increase in 
highway authorizations over 6 years, the creation of a NIB, and the 
continuation of the TIGER grant program. We also believe that better 
planning, including freight and corridor planning, will serve to 
identify the best ways to address specific transportation needs. The 
administration has also proposed consolidating more than 55 programs 
into five streamlined program areas with investment decisions driven by 
performance rather than narrow categorical niches. We believe that the 
administration's proposal provides options for addressing interstate 
corridor needs.
    Is this administration focused enough on roads and bridges?
    Answer. Yes, the administration recognizes the value of our 
transportation infrastructure and the need to invest in it. The 48-
percent increase we propose for highway authorizations, the creation of 
a NIB, the continuation of the TIGER grant program, and our emphasis on 
planning and performance are good indications of our focus on roads and 
bridges. We're also focused on delivering highway projects efficiently. 
Under its Every Day Counts Initiative, the Federal Highway 
Administration is challenging States to make use of the new 
technologies that make our roads and bridges stronger and safer and 
allow those projects to be delivered faster.
                  cross-border trucking pilot program
    Question. I understand that the administration is refocusing 
efforts to restart the cross-border trucking pilot program between the 
United States and Mexico. I remain concerned about this program, and I 
hope you will work closely with this subcommittee and other relevant 
Committees if you are indeed moving forward with such a proposal. 
Following the recent news of a Federal Motor Carrier Safety 
Administration (FMCSA) inspector in Canada taking tens of thousands of 
dollars in bribes, I'm especially concerned about the potential for 
corruption of FMCSA agents tasked with doing inspections in Mexico.
    How can you assure us that such corruption would not take place?
    Answer. FMCSA can assure the subcommittee that we will remain 
vigilant and ask our employees to remain vigilant to identify potential 
corruption and create a culture in which this behavior is not tolerated 
in any form or manner. Efforts by FMCSA to fight corruption include our 
``See something--say something'' campaign. All employees were advised 
in writing of the obligation to report any suspected criminal behavior 
to the Department's Office of the Inspector General (OIG) and provided 
the OIG hotline number for their use if necessary. FMCSA recently held 
meetings with all staff and stressed integrity and individual 
accountability. This staff training was in addition to annual ethics 
training provided by the agency's Office of the Chief Counsel. In 
addition, all investigators are being re-credentialed. This involves 
updating background checks for each investigator who has not had one in 
5 years. Finally, to address these considerations and further improve 
FMCSA's efforts in this area, FMCSA will be meeting with the Customs 
and Border Patrol to complete benchmarking and lessons learned in this 
area.
    Question. What is the status of this pilot program?
    Answer. On July 6, 2011, Secretary LaHood joined Mexico's Secretary 
of Communications and Transportation in signing documents that specify 
the details of a new cross-border, long-haul trucking pilot program. 
FMCSA received more than 2,000 comments from its notice describing the 
proposed pilot program. The Department of Transportation has completed 
the public notice and comment period and the final proposal was posted 
in the Federal Register on July 8, 2011.
    Question. Why, under this program, is the United States proposing 
to pay for the electronic on-board recorders to be used by Mexican 
carriers?
    Answer. Following the termination of the previous pilot program, 
Secretary LaHood met with more than 30 Members of Congress and other 
stakeholders to hear their concerns about the safety of that program. 
During these visits he consistently heard concerns that the United 
States needed to be able to determine how many hours a Mexican driver 
had already been working when he or she arrived at the United States 
border. He also heard concerns about Mexican drivers taking United 
States jobs by illegally engaging in cabatoge (movement of goods from 
place to place within the United States).
    Electronic monitoring devices will allow FMCSA and State inspectors 
visibility into the hours a Mexican driver is working, not only in the 
United States, but also while he or she is operating a commercial motor 
vehicle in Mexico. The devices will allow FMCSA to monitor the 
operations of the Mexican companies to ensure they do not engage in 
cabotage. Finally, they will provide critical data about the miles 
traveled by the pilot program trucks while they are operating in the 
United States. This will allow FMCSA to evaluate the safety of the 
program as required under the North American Free Trade Agreement. For 
all of these reasons, electronic monitoring devices are vital tools in 
ensuring the safety of Mexican trucks in this program and success of 
the overall program.
    FMCSA is proposing to pay for the electronic monitoring devices 
because:
  --These devices are not currently required for trucks in the United 
        States. The Mexican Government would not accept an agreement 
        that put Mexican carriers at a disadvantage to United States 
        carriers by requiring a piece of expensive equipment not 
        required for United States carriers; and
  --By owning the devices, FMCSA will own the data produced and be able 
        to conduct on-going monitoring of the vehicles in the program. 
        This on-going monitoring would not be possible if the devices 
        were owned by the Mexican carriers. FMCSA would only be able to 
        view the data when conducting reviews of the carriers' 
        compliance.
    It should be noted that since the equipment will be owned by the 
United States, we will have the devices removed from the trucks at the 
end of the pilot program. In addition, if the proposed rule requiring 
electronic on-board recorders (EOBRs) for all United States trucks 
becomes effective or if a Mexican carrier is required to install EOBRs 
under a remedial directive under current FMCSA regulations, the Mexican 
carrier will be required to obtain its own EOBRs to comply with those 
regulations. At no point will equipment purchased by FMCSA be used to 
comply with a regulation requiring EOBRs.
                                 ______
                                 
                Questions Submitted by Senator Mark Kirk
                   regional transportation authority
    Question. As you are aware, the Regional Transportation Authority 
(RTA) is the third-largest public transportation system in North 
America, and provides the financial and budget oversight of the Chicago 
area's three service boards--Metra, Pace, and the Chicago Transit 
Authority. Earlier this year, there was a proposal in the State capital 
to change how the RTA chair is selected. Under current State law, the 
RTA board selects its chair. This ensures that the chair best 
represents the communities RTA serves. The proposal that was introduced 
would change how the RTA chair is selected, taking that power away from 
the board and giving it to the Governor--nothing short of the 
politicization of the RTA.
    Would you agree with me that the RTA and all transit authorities 
are best served by keeping politics out of their management?
    If you haven't had a chance to meet him yet, I'd strongly recommend 
you chat with the current RTA Chair John Gates.
    Answer. The Federal Transit Administration (FTA) works with a large 
variety of public transportation systems across the United States, many 
of which have leaders that are chosen through a political process. 
While FTA is involved in the planning, financing, and oversight of the 
public transportation systems receiving Federal funds, it does not get 
involved with the governance of those systems. As such, FTA does not 
have a position on the State of Illinois' proposed changes to the 
selection process for the RTA chair.
                            metra new starts
    Question. What is the current status of Metra's UP-Northwest and 
UP-West new start projects? My understanding is that FTA may have 
expressed concerns about the proposed financial plan associated with 
both new start projects. Please provide details on FTA's concerns with 
those projects, if any.
    Answer. In April 2010, Metra submitted a financial plan to FTA for 
its two proposed Union Pacific commuter rail upgrade projects. Because 
funding for the New Starts program is very competitive and funding is 
limited, FTA informed Metra that it needed to reduce the requested New 
Starts shares (the percent of the project covered by New Starts 
funding) for the projects to make them more competitive for funding. 
FTA also informed Metra of several financial plan deficiencies that 
needed to be addressed before FTA could approve the projects into the 
New Starts program. These included providing sufficient information to 
FTA on revenues and expenses related to ongoing rehabilitation and 
replacement of the existing system, projecting growth rates for tax 
revenue sources more similar to historical growth rates, and addressing 
State funding uncertainties. Metra reported to FTA in summer 2010 and 
again in summer 2011 that the two projects are on hold until December 
2011 at the earliest.
                                metrics
    Question. In the President's fiscal year 2012 request, $5 billion 
is requested for a NIB that will provide grants and loans to leverage 
transportation dollars for individual projects. We are currently 
operating in an environment without earmarks, making the need for 
transparency in executive investment even more crucial.
    What metrics and analysis will the Department of Transportation 
(DOT) use to determine project eligibility for NIB financing?
    Answer. The NIB will assign to each eligible application a single 
numerical factor on the basis of an evaluation of the information and 
data collected either from the applicant or otherwise in the course of 
due diligence on the application. This factor would be the 
application's qualification score and would represent the NIB's primary 
estimate of the present value of net benefits most likely to result 
from the funding of the project or projects as proposed in the 
application. In order to indicate the potential for uncertainty in 
estimating the qualification score, the NIB would also estimate a range 
for the present value of the application's net benefits. The 
calculation of the qualification score and associated range would be 
determined through a consistently applied analytic and systematic 
framework. The methodology of that framework, including the specific 
mechanics of data inputs and calculations, would be published in an 
investment prospectus. The qualification score and range would be 
shared with the applicant and published on the NIB's Web site.
    The methodology used to calculate the qualification score and range 
will apply equal weighting to equal monetary values of all categories 
of benefits and costs used to calculate the present value of net 
benefits; use standardized measures of the expected uncertainty in 
total net benefits for the project to define the range, and include 
standardized measures of the expected uncertainty in specific benefits 
and costs associated with the project; and include a descriptive 
statement delineating the significant factors and analysis that went 
into determination of the score and the range.
    Question. Will regional considerations be given for projects, 
meaning will DOT address projects located only in urbanized areas?
    Answer. The President's fiscal year 2012 budget states that the 
National Infrastructure Bank (NIB) would invest in projects of 
``national and regional significance.'' Projects located entirely in a 
rural area must exceed $10 million to be eligible for funding, compared 
to a figure of $50 million for projects in urbanized areas.
    We believe that rural projects would compete well for grant and 
loan funding under a NIB, as they did under the Transportation 
Investment Generating Economic Recovery (TIGER) Discretionary Grant 
program, which required cost-benefit analysis for rural and urban 
projects.
    Question. With regard to the Transportation Leadership Awards, 
which would be the equivalent of the Department of Education's Race to 
the Top Initiative, what metrics or analysis will you use to base the 
awarding of grants? What are the performance outcome criteria that you 
will use?
    Answer. The Transportation Leadership Award (TLA) program is a 
multimodal, multiyear competitive grant program designed to spur major 
reform in the way States and metropolitan regions make transportation 
policy and investments, and encourage new and innovative solutions to 
transportation challenges. Under the TLA program, funding will be 
awarded to applicants that have adopted or implemented best practices 
in transportation planning, finance, delivery, and operation. Examples 
of best practices include:
  --Commitment to a variety of sustainable and innovative non-Federal 
        sources of transportation funding that provides flexibility to 
        make investments across all modes;
  --Analytical tools in the investment decisionmaking process;
  --Practices that increase the efficient use of system capacity and 
        reduce the need to invest in new highway capacity;
  --Technologies and training to improve the condition and performance 
        of transportation networks;
  --Adoption of laws, rules, and regulations, and a commitment of 
        resources toward practices that reduce transportation-related 
        fatalities and injuries, improve air quality, reduce greenhouse 
        gas emissions, enhance community quality of life, and expand 
        transportation choices;
  --Integration of transportation planning and investment decisions 
        with other land-use and economic development decisions;
  --Collection and use of data in longitudinal analyses of investment 
        performance and return on investment; and
  --Performance-based distribution process for the allocation of a 
        significant portion of non-Federal funds and Federal 
        transportation formula funds under the control of the 
        applicant.
    The TLA program includes two types of grants. The first, and 
largest, type is designed to fund a program of projects that is 
intended to address cross-cutting performance needs. The program of 
projects must:
  --Include the priorities of metropolitan planning organizations 
        within the applicant's jurisdiction as identified in their 
        transportation improvement programs;
  --Demonstrate superior return on investment and competitive value for 
        taxpayer money by means of a benefit-cost analysis of 
        alternatives;
  --Be developed through a multimodal, performance-based, and 
        comprehensive transportation planning process that includes 
        linkages to housing, economic development, environment, land 
        use, and other infrastructure investment planning and 
        investment, and with strong, interactive public input and 
        awareness; and
  --Further transportation policy best practices and reform 
        initiatives.
    The second type, known as a managing performance grant, is designed 
to fund initiatives that help communities build up the technical and 
organizational capacity to needed develop and undertake the 
transformative changes in transportation planning, management, 
investment, and project delivery that will enable them to qualify for 
TLAs. Typical initiatives that could be funded under this grant 
include:
  --Data collection, storage, and analysis systems;
  --Advanced transportation modeling, simulation, and analysis; and
  --Staff training to utilize new, more advanced systems and 
        departmental reorganization to support implementation of best 
        practices.
    Applications submitted for funding consideration under the TLA 
program will be evaluated based on the extent to which it:
  --Promotes national transportation priorities, including:
    --Reducing transportation fatalities and injuries;
    --Strengthening economic competitiveness, including improvement to 
            goods movement and encouragement of reuse of underutilized 
            developed land;
    --Improving the state of repair of the transportation system;
    --Improving asset performance by reducing congestion through demand 
            management strategies, particularly strategies that curb 
            demand for single occupancy vehicle travel; and
    --Supporting environmental sustainability by reducing air emissions 
            and water pollution, improving or protecting aquatic 
            resources, and protecting sensitive lands.
  --Provides for a multimodal approach to solving transportation 
        challenges.
  --Demonstrates the progress made through earlier grant awards, for 
        applicant that are awarded funding in previous rounds of TLA 
        grant-making.
                            high-speed rail
    Question. We've seemed to work out a model for private-public 
partnerships on the highway side--the Chicago Skyway and the Indiana 
Toll Road being good examples. What is DOT and the Federal Railroad 
Administration doing to incentivize private capital to get involved on 
the rail side?
    Answer. While significant Federal investment is necessary in the 
early years to demonstrate a national commitment to passenger rail, 
build institutional capacity, and initiate multi-year and multi-State 
projects, the National High Performance Rail System (NHPRS) will 
succeed only if States, regional entities, and the private sector all 
have vital roles in planning, developing, financing, and operating 
these services. Private partners have been and will continue to be 
instrumental in developing the system, from partnerships with freight 
railroads, to designing and constructing high-speed rail 
infrastructure, to operating the services.
    The fiscal year 2012 budget request encourages innovation in 
project delivery, such as the use of public-private partnerships, to 
assist with project financing, delivery, and risk-management of high-
speed rail projects. The proposal also promotes more direct and 
substantial private sector participation in developing and operating 
high-speed rail by making private entities eligible for targeted 
financial assistance, provided that their project proposals are 
consistent with State and regional passenger rail plans. In addition, 
it provides dedicated resources to support private-sector capacity 
building in the field of rail transportation, as the rail industry 
grows to accommodate future expansion.
    The fiscal year 2012 proposal expands partnerships with rail 
manufacturers and suppliers by investing in new equipment and 
overhauling existing equipment. The establishment of a strong Federal 
partner with a stable and predictable source of financing will allow 
manufacturers and industry to invest in expansion, new facilities, and 
new employees. With explicit Buy America provisions included, the 
fiscal year 2012 proposal provides U.S. manufacturers and equipment 
builders opportunities in high-speed and intercity passenger rail.

                          SUBCOMMITTEE RECESS

    Senator Murray. And for now, this hearing is recessed until 
Thursday, March 31, at 9:30 a.m., at which time we'll hear 
testimony from Commissioner David Stevens on the fiscal year 
2012 budget request for the Federal Housing Administration.
    [Whereupon, at 10:45 a.m., Thursday, March 10, the 
subcommittee was recessed, to reconvene at 9:30 a.m., Thursday, 
March 31.]

</pre></body></html>
